<html>
<title> - ADOPTION REUNION REGISTRIES AND SCREENING OF ADULTS WORKING WITH CHILDREN</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
   ADOPTION REUNION REGISTRIES AND SCREENING OF ADULTS WORKING WITH 
                                CHILDREN

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 1998

                               __________

                           Serial No. 105-102

                               __________

         Printed for the use of the Committee on Ways and Means





                      U.S. GOVERNMENT PRINTING OFFICE
63-457                        WASHINGTON : 2000



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman
PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        BARBARA B. KENNELLY, Connecticut
JIM BUNNING, Kentucky                WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM HAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
JOHN ENSIGN, Nevada
JON CHRISTENSEN, Nebraska
WES WATKINS, Oklahoma
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
                     A.L. Singleton, Chief of Staff
                  Janice Mays, Minority Chief Counsel
                                 ------                                

                    Subcommittee on Human Resources

                  E. CLAY SHAW, Jr., Florida, Chairman
DAVE CAMP, Michigan                  SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               FORTNEY PETE STARK, California
MAC COLLINS, Georgia                 ROBERT T. MATSUI, California
PHILIP S. ENGLISH, Pennsylvania      WILLIAM J. COYNE, Pennsylvania
JOHN ENSIGN, Nevada                  WILLIAM J. JEFFERSON, Louisiana
J.D. HAYWORTH, Arizona
WES WATKINS, Oklahoma

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                              ----------                              
                                                                   Page
Advisory of June 4, 1998, announcing the hearing.................     2

                               Witnesses

U.S. Department of Justice, Kent Markus, Deputy Chief of Staff...   123

                                 ______

Bennett, Hon. Robert F., a U.S. Senator from the State of Utah...    40
Bliley, Hon. Tom, a Representative in Congress from the State of 
  Virginia.......................................................    36
Cahn, Naomi, George Washington University Law School.............    67
Child Welfare League of America, Ann Sullivan....................   116
Craig, Hon. Larry E., a U.S. Senator from the State of Idaho.....    31
Florida Department of Children and Families, Josette Marquess....    57
Levin, Hon. Carl, a U.S. Senator from the State of Michigan......    29
Michigan Post-Adoption Support Services, JoAnne Swanson..........    76
National Conference of Commissioners on Uniform State Laws, 
  Robert Robinson................................................    99
Sandusky, Carol, Doylestown, PA..................................    82
Wilson, R. David, Arlington, VA..................................    92

                       Submissions for the Record

American Academy of Adoption Attorneys, Mark T. McDermott, 
  statement......................................................   145
American Adoption Congress, Jane C. Nast, statement..............   146
Bastard Nation, Kirkland, WA, statement..........................   151
Cohen, Barbara, Watchung, NJ, letter.............................   153
Evan B. Donaldson Adoption Institute, New York, NY, Madelyn 
  Freundlich, statement..........................................   155
Foltz, Gregory, St. Andre Home, Biddeford, ME, statement and 
  attachments....................................................   214
Freundlich, Madelyn, Evan B. Donaldson Adoption Institute, New 
  York, NY, statement............................................   155
Greenman, Frederick F., New York, NY, statement..................   158
Groves, Nancy Jane Bustamante, Winter Springs, FL, letter and 
  attachment.....................................................   164
Hasegawa, Pamela Quayle, letter and attachments..................   174
Hollinger, Joan Heifetz, Berkeley, CA, statement.................   177
Louisiana Adoption Advisory Board, Inc., Metairie, LA, statement.   181
Marvin, John B., Littleton, MA, statement........................   189
McDermott, Mark T., American Academy of Adoption Attorneys, 
  statement......................................................   145
Nast, Jane C., American Adoption Congress, statement.............   146
National Council for Adoption, statement.........................   197
Newman, Nancy M., Bryn Mawr, PA, statement.......................   207
Oberstar, Hon. James L., a Representative in Congress from the 
  State of Minnesota, statement and attachment...................   211
St. Andre Home, Biddeford, ME, Gregory Foltz, statement and 
  attachments....................................................   214



   ADOPTION REUNION REGISTRIES AND SCREENING OF ADULTS WORKING WITH 
                                CHILDREN

                              ----------                              --
--------


                        THURSDAY, JUNE 11, 1998

                  House of Representatives,
                    House Ways and Means Committee,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room B-318, Rayburn House Office Building, Hon. E. Clay Shaw, 
Jr. (Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

    [GRAPHIC] [TIFF OMITTED]63457A.001
    
    [GRAPHIC] [TIFF OMITTED]63457A.002
    
    Chairman Shaw. Good morning. One of my personal goals as 
Chairman of the Subcommittee, is to make adoption easier and to 
help find loving families for hundreds of thousands of children 
in need. Our Committee has an extensive legislative history of 
support for adoption.
    In 1996, we passed a $5,000 tax credit to help defray the 
cost of one-time adoption expenses. At the same time, our 
Subcommittee wrote legislation that ended racematching policies 
in adoption that had resulted in minority children remaining in 
foster care on average more than twice as long as white 
children.
    In 1997, the Adoption and Safe Families Act which 
originated in this Subcommittee, provided financial incentives 
to the States to move more children out of foster care and into 
permanent, loving, adoptive families.
    Today's hearing brings attention to two distinct issues 
that were raised last year during the consideration of the 
Adoption and Safe Families Act. The first issue is the role 
that Government should play to make it easier for adult adoptee 
and birth parents to exchange information. The second issue is 
State and Federal Government systems designed to check the 
criminal background of adults who work with children.
    We welcome, this morning, Senator Levin, a longtime 
advocate for increasing the Federal role in facilitating the 
exchange of information between adoptees and birth parents and 
also, of course, the brother of my colleague to my left. I am 
also very pleased that the Co-Chairs of the Congressional 
Coalition on Adoption, Senator Larry Craig, Congressman Tom 
Bliley, and Congressman Jim Oberstar are here to share their 
views on this important issue. In addition, I am informed that 
Senator Robert Bennett will stop by later this morning. I also 
understand that Representative Mark Souder will also be joining 
us later in the morning. He has a particular interest in the 
screening of persons working with children.
    After we hear from these distinguished members, our first 
panel will focus on how adoption reunion registries work on the 
State level; what safeguards are in place to maintain 
confidentiality, and the strengths and weaknesses of current 
policies to facilitate reunions and to protect the privacy 
interests of all concerned. I am especially pleased to welcome 
the coordinator of the Florida Adoption Reunion Registry, Ms. 
Josette Marquess, who will walk us through the mechanics of a 
State reunion registry.
    Our second panel will examine existing State practices and 
Federal guidelines for identifying potential abusive 
individuals. Members of our subcommittee will recall that in 
the Adoption and Safe Families Act, a provision was included 
that required States to perform criminal background checks for 
prospective foster and adoptive families. Although States could 
opt out of this requirement, none have yet done so. This panel 
will provide an overview of the State and Federal systems 
currently available to check the records of any adult working 
with children and how these different systems interact to 
ensure the safety of children.
    Today, I encourage our members and interested observers to 
listen carefully to the statements made by our witnesses. The 
topics we are considering are highly sensitive, emotionally 
charged, and hotly debated. It is my hope that this hearing 
will not only bring attention to these issues but will create 
the kind of calm and reasoned atmosphere that will allow a 
serious and thoughtful analysis of whether the Federal 
Government should take legislative action on either of these 
issues.
    [The opening statement and attachments follow:]
    [GRAPHIC] [TIFF OMITTED]63457A.003
    
    [GRAPHIC] [TIFF OMITTED]63457A.004
    
    [GRAPHIC] [TIFF OMITTED]63457A.005
    
    [GRAPHIC] [TIFF OMITTED]63457A.006
    
    [GRAPHIC] [TIFF OMITTED]63457A.007
    
    [GRAPHIC] [TIFF OMITTED]63457A.008
    
    [GRAPHIC] [TIFF OMITTED]63457A.009
    
    [GRAPHIC] [TIFF OMITTED]63457A.010
    
    [GRAPHIC] [TIFF OMITTED]63457A.011
    
    [GRAPHIC] [TIFF OMITTED]63457A.012
    
    [GRAPHIC] [TIFF OMITTED]63457A.013
    
    [GRAPHIC] [TIFF OMITTED]63457A.014
    
    [GRAPHIC] [TIFF OMITTED]63457A.015
    
    [GRAPHIC] [TIFF OMITTED]63457A.016
    
    [GRAPHIC] [TIFF OMITTED]63457A.017
    
    [GRAPHIC] [TIFF OMITTED]63457A.018
    
    [GRAPHIC] [TIFF OMITTED]63457A.019
    
    [GRAPHIC] [TIFF OMITTED]63457A.020
    
    [GRAPHIC] [TIFF OMITTED]63457A.021
    
    [GRAPHIC] [TIFF OMITTED]63457A.022
    
    Chairman Shaw. Mr. Levin.
    Mr. Sander Levin. Thank you, Mr. Chairman, and thank you 
very much for holding this hearing. We discussed it last year, 
and there was a feeling that this hearing would be held, and 
it's very timely. You know, often, in these hearings we state 
our position in advance of the testimony of witnesses, and the 
chairman hasn't done that today, and I will not either. I think 
it would be especially questionable in review of the fact that 
one of the first witnesses is my brother, Senator Carl Levin. 
But I must confess that I know of his activity.
    My brother has been working on this issue for more than a 
decade, and I have admired his interest and his tenacity. I'm 
not sure of the source of his interest. I am aware of the 
source of his tenacity. I think it's just that he's a very 
caring individual and came to view this is an important matter 
for lots of people in this country. So, I welcome him. I think 
this is the first time I've ever had him testify before a 
subcommittee, and I intend to question him very intensely. I 
would also like to welcome Senator Craig, a former colleague 
and present, also distinguished colleague, Tom Bliley. So, Mr. 
Chairman, I'll put my statement in the record and why don't we 
just launch into the hearing.
    [The opening statement follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.023
    
    [GRAPHIC] [TIFF OMITTED]63457A.024
    
    Chairman Shaw. All right. Our first panel is already in 
place, and, with that, I think you've been introduced, Senator 
Levin. You may proceed. We have each of your full statements 
which will be made a part of the record, and you may summarize 
as you see fit, and we do have a five minute rule over here, 
Mr. Levin. [Laughter.]
    Something that is somewhat foreign, I know, to the other 
body.
    Senator.

STATEMENT OF HON. CARL LEVIN, A U.S. SENATOR FROM THE STATE OF 
                            MICHIGAN

    Senator Carl Levin. Mr. Chairman, members of this 
subcommittee, first, thank you, Mr. Chairman for holding the 
hearing on a topic which has been the subject of a great deal 
of discussion in the Senate over the years where we've passed 
this bill a number of times; where we've had hearings a number 
of years ago, indeed, on this subject at great length.
    There are millions of people who are adopted in this 
country, and a significant part of them are searching for their 
biological parent, usually the mother. We have a significant 
number of the biological mothers who gave up their child for 
adoption who are seeking to find those children. We know the 
numbers are significant--there's different estimates--but we 
know there are large numbers of people who seek to find each 
other, and this bill only addresses people who are trying to 
find each other, and its purpose is to facilitate people who 
are searching for each other, sometimes desperately to find 
each other. It does not seek anybody out who does not want to 
be found. It is a passive registry based on two adults 
searching for each other, helping to find each other. It does 
not open records; it specifically prohibits that. It does not 
in any way preempt State registries or in any way override or 
affect State registries. It explicitly says it does not do 
that. It is a very simple bill in a lot of ways. Its purpose is 
that at no net expense to the Federal Government it authorizes 
HHS to maintain this registry where adults--it has to be 
adults; the adopted child must be 21 years or older--is seeking 
to find a birth parent or a sibling.
    So, what is the need for this registry? Many States have 
registries, different varieties: some are passive, some are so-
called search and consent where one party puts the name in and 
then the registry seeks the other party. That is not what this 
is. This is a passive registry. But what's the need, then, for 
this registry if most States have one form or another of 
registry?
    There are a number of reasons why a national registry will 
facilitate, but one of the main reasons is that many adopted 
children do not know the State in which they were born. Their 
birth certificate does not identify the State in which they 
were born, and for many biological mothers, the birth mother, 
they do not know the State in which the adoption took place. 
The child could be adopted in a different State from the State 
in which he was born.
    So, one of the reasons why people have difficulty using the 
State registries--and I think all our States just about have 
registries; there's a few that don't--but one of the reasons is 
that you have that gap in information where theadopted child is 
not certain what State he or she was born in, and the birth mother 
doesn't know what State the child was adopted in. The child knows what 
State it was adopted in but not the State in which it was born.
    There's another reason: when siblings look for each other, 
and we have letters here from siblings from five, six, seven 
different States with no idea what State in which they were 
born or in which their sibling lives. There's other identifying 
information, however. It's actually called non-identifying 
information, but in simple terms there's other information 
which will permit a match to be made, and it is that type of 
information which the registry uses, a passive registry uses, 
to make these matches. For instance, age of birth parents; 
description of general physical appearance; race, ethnicity, 
religion of birth parents; facts and circumstances relating to 
the placement; age and sex of other children. There is other 
information which permits the match other than the name of the 
parent or the child and even other than the location of the 
birth. It is that so-called non-identifying information--
because it doesn't identify the name of the parent or the child 
or even the location of the birth--which makes matches 
possible.
    The fundamental question is this: If State registries have 
had no problems in terms of violations of privacy with these 
one-parent matches or reunions--and we don't know of States 
that have had problems; we have letters, for instance, from the 
State of Louisiana saying there's been no problems, and most of 
the States that have these passive registries have the one-
parent reunion where you don't have to get approval of the 
other parent, and we've not had problems as a result--if the 
registries and the States that have passive registries have 
done so successfully, but if there are limits to their 
capabilities to facilitate people searching for each other, why 
not do that for people? Why not allow people searching for each 
other to find each other?
    Michael Reagan, adopted son of President Reagan, came to my 
house one night and told me how important this bill was to 
him--and I have a letter from him which I'll submit for the 
record, Mr. Chairman--and told me that he really never realized 
that his father, who was then President of the United States, 
even loved him until his father told him he would help him find 
his birth mother. That's how important it was to him, and 
that's how important it is to many, not all--we don't know the 
percentage--many adopted children.
    If they don't want to find their birth mother, fine; that 
is their right. If the birth mother doesn't want to be found, I 
believe that is okay too; that is her choice. But where two 
adult human beings are searching for each other and where there 
are limits on State registries because of the reasons I've 
given and others and where they're searching desperately for 
their sibling and where privacy has not been invaded of the 
other birth parent who doesn't want to be found, in the 
experience of these passive registries, the haunting question 
seems to me, the humane question is, why would we not want to 
facilitate that if we can do so protecting the privacy of the 
person who does not want to be found? It is not an open record. 
It does not displace State law.
    Now, misinformation has been circulated about this bill 
over the years, and I won't go into that for a number of 
reasons not the least the limitations of time. I want to focus 
on the positive. What this bill is is a humane way of allowing 
people to find each other without invading the privacy of 
others. It is not an open records bill; it is not a search and 
consent bill.
    My time is up, and I thank the Chair, and I, again, 
appreciate--I'll just say how appreciative we are, those of us, 
including Senator Craig who will speak for himself and Senator 
Landrieu who is an adoptive mother; Senator McCain who is an 
adoptive father, who are co-sponsors of this bill. We 
appreciate that you're giving us the chance to be heard on this 
subject.
    Chairman Shaw. Thank you, Senator.
    Senator Craig.

STATEMENT OF HON. LARRY E. CRAIG, A U.S. SENATOR FROM THE STATE 
                            OF IDAHO

    Senator Craig. Chairman Shaw, thank you very much, 
Congressman Levin, members of the committee. Like Senator 
Levin, thank you for giving us an opportunity to speak to this 
legislation this morning and for your interest in it.
    As you know, last year, we worked together and passed 
landmark foster care reform law, the Adoption and Safe Families 
Act. I believe now we must complete the process, and I think 
this legislation is a very important part of that. My comments 
will be brief this morning. I understand your time limits--
Senators can be brief. I grew up in the House. I learned that 
lesson. But also there's another item on my schedule that has 
to be tended to.
    Let me say at the outset, I was slow to come to this idea. 
I listened to both sides for a time, but I recognize the 
importance of doing this; it is a national and is a human 
rights issue. I listened to Senator Levin, and he was also 
cooperative in allowing me to work with him to shape the 
legislation. So, now I strongly support a national, voluntary, 
mutual reunion registry for adoptees largely because of the 
experience I've just related to you but also because of my own 
family experience.
    You may already know, I'm an adoptive father. My children 
had issues to resolve with their birth father even into their 
adulthood and beyond, and I believe that this option could have 
helped them. When two adults choose to search for one another, 
out of the most fundamental and powerful of human motives--the 
need to better understand themselves and their relationship 
with others--then we ought to have the ability to help, and I 
think this proposal gives us that opportunity.
    It is within our power to make this registry a reality, and 
provide these individuals with a tool for undertaking the 
impossible challenge of searching the Nation for one another. I 
hope that the subcommittee shares my support for what I think 
is a very legitimate goal.
    I realize that the focus of today's hearing is not on the 
justification of this program but on how it works, and I think 
Senator Levin has spelled that out very clearly. He's the 
expert in the field. He's spent a long time, as his brother has 
related to us, looking at this and working on it. I'm a 
relative newcomer to the issue, but I understand the importance 
of it.
    Our legislation, S. 1487, is very specific about what a 
national registry--and I believe this word is important--what a 
national registry cannot do, but it is deliberately vague about 
what it can do and how it might work, and it allows the 
greatest of flexibility in designing the system, but it is 
important that we say what it cannot do, because I think it 
alleviates the fears of others who argue some issues that I 
think are--at least from my opinion--not as valid.
    For my part, I envision a simple system in which interested 
individuals supply information that is matched via computer. 
This information would be verifiable with publicly available 
data, not through any kind of open records mandate, and that's 
important. My State of Idaho has a closed system. In fact, our 
bill specifically states that it does not preempt any State's 
sealed record or records policy, and we know some States' 
registries are able to match people without resorting to sealed 
records. Surely, we can achieve as much at the Federal level.
    As the subcommittee considers the national registry, I hope 
unreasonable burdens wouldn't be placed on the system. It 
doesn't have to guarantee that every union will be a happy one; 
we shouldn't do that. It doesn't have to provide blood kinship 
with the accuracy of a DNA test before a reunion is 
facilitated. It's worth pointing out that the State registries, 
the privately-operated Soundex system, and private detectives 
don't make such guarantees today. Others here today know much 
more, as I have said, about this, and Senator Levin is one of 
them, but I believe this is something we ought to do. The 
Senator has clearly explained how it works and why it should be 
a national registry.
    When you're dealing with adults--and we're not dealing with 
States' rights here; we protect them--our Constitution is very 
clear on the right of citizens, and in dealing with adults, 
we're talking about the rights of citizens. We're not stepping 
on the toes of any of those who are responsible for juveniles, 
because we talk about adults and adults only and the need for 
them to come together.
    I think it's an important piece of legislation. I think it 
completes very successfully the process we started a year ago 
to help in this country not only facilitate adoptions of 
children who need permanent loving homes but once mature and in 
search of their identity and many are, then this, I believe, 
completes the extension of what we've offered and we continue 
to support. Thank you, Mr. Chairman.
    [The prepared statement of Senator Craig follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.025
    
    [GRAPHIC] [TIFF OMITTED]63457A.026
    
    [GRAPHIC] [TIFF OMITTED]63457A.027
    
    Chairman Shaw. Thank you, Senator.
    Mr. Bliley.

STATEMENT OF HON. TOM BLILEY, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF VIRGINIA

    Mr. Bliley. Thank you, Mr. Chairman and Congressman Levin, 
other members of the committee. I appreciate this opportunity 
to testify today. I am opposed to this bill. My wife and I are 
adoptive parents of two children. I think family law is best 
left to the States. Forty-eight States currently have a system 
in place to satisfy the needs of adoptees and birth parents who 
wish to meet. I am concerned about the potential outing of a 
birth mother. A mother who made a mistake and had a child out 
of wedlock and offers that baby up for adoption. She goes on 
and lives a new life, and what I fear is an unwelcome knock on 
the door. I think that's something that we cannot overestimate 
the danger of in this bill. It says, ``any birth parent.'' It's 
not defined. It could have the unintended affect of a birth 
father outing, birth mother or vice versa, and I think that 
would be a terrible tragedy.
    We talk about confidentiality of the records. We've seen 
just recently as June 6th that a hacker broke into the Army 
computers. You're going to have sensitive information, and 
there's a great risk. I think the State system is working well, 
and I think, basically, it should to be left that way. I have a 
long statement. I ask unanimous consent to put it in the 
record.
    [The prepared statement of Mr. Bliley follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.028
    
    [GRAPHIC] [TIFF OMITTED]63457A.029
    
    [GRAPHIC] [TIFF OMITTED]63457A.030
    
    Chairman Shaw. Thank you. As I said earlier, the full 
statement of all the Members will be placed in the record.
    We're now joined by Senator Bennett.
    Senator Bennett.

 STATEMENT OF HON. ROBERT F. BENNETT, A U.S. SENATOR FROM THE 
                         STATE OF UTAH

    Senator Bennett. Thank you, Mr. Chairman. I apologize for 
coming in late. I appreciate your willingness to allow me to 
make a few comments about this bill.
    It passed the Senate by unanimous consent which is the way 
we get most things done in the Senate, but, occasionally, that 
exposes a lack of diligence on the part of Members of the 
Senate, and I should have registered some of these complaints 
at the time that it moved through the Senate, and I appreciate 
the opportunity to register them here.
    My main concern with S. 1487 is that it does not provide 
details on how it will work, and since its passage, I have been 
contacted by the Church of Jesus Christ of Latter Day Saints, 
an organization to which roughly 70 percent of the constituents 
in my State belong and which is involved in adoption of 
children. This has a very strong personal impact on me, because 
it is through the church's social services that my latest 
grandchild came into being. A delightful young boy, a gorgeous 
baby who was made available to my daughter through the adoption 
process that the church manages.
    And the leaders of the church are concerned that S. 1487 
will open the door to a federalized registry in a way that does 
not adequately protect privacy and that this may very well have 
a chilling effect on adoption. The unclear language could 
create some harmful situations, and I will provide for the 
committee some highlighted provisions in the bill which in the 
opinion of the church's legal authority produce the kind of 
uncertainties that they are concerned about.
    Now, the purpose of the legislation is to reunite people 
separated from each other by the adoption process, and in many 
cases this is a very desirable thing. It's a choice on the part 
of the individuals and should be available to them. However, if 
the reunion is desired by the involved parties, they can take 
advantage of the systems that are already offered in the 
States. Virtually, every State has sort of system in place that 
people seeking identification may use. And, again, if I may be 
personal, I have a brother and sister-in-law who were unable to 
have children; have adopted four children. Three of their four 
children decided they wished to make some kind of contact with 
their birth parents; the fourth did not. All three were able to 
do so without any difficulty under the present system and did 
not find it necessary for this kind of legislation to be in 
place in order for them to fulfill their desire.
    Existing State laws provide what each States deems 
appropriate for dealing with the rights and interests of the 
adoptee and their adoptive parents, and it's more logical when 
dealing with personal and confidential family matters such as 
these to work within the framework of the States instead of 
opening it up to the Federal Government, and superimposing a 
duplicate, regulatory procedure, in my view, would cause 
confusion and open up more problems.
    Many involved in the adoption process were promised that 
their identity would be protected and honored by all parties 
associated with this for their entire lives. Again, if I may be 
personal, one of my nephews had a disease which the doctors 
decided should be traced to some kind of genetic background, 
and for this purpose and this purpose only he went about trying 
to find his birth parents. He had previously had no interest in 
so doing. He did achieve his goal and had a conversation with 
his birth mother. It was preceded by a phone call where he 
asked if such a woman were at home; was told yes; then asked 
did she have a child 21 years ago. There was silence on the 
other end of the phone, and the individual said, ``I don't 
know.'' He then spoke to her; achieved the medical information 
that he was after, and then she said this has created a very 
interesting and difficult situation for me. ``My husband does 
not know that I was pregnant with you. No member of my family 
had any previous knowledge that I had had another child, and 
your phone call will produce some challenges for me in my 
situation.''
    So, we need to pay attention to the desire of people to 
keep certain aspects of their lives private, and Federal 
legislation could lead to a perceived problem with this kind of 
privacy. If it causes less adoptions, again, speaking very--and 
more abortions--speaking very personally, I would have one less 
grandchild.
    For these reasons, Mr. Chairman, I appreciate the 
opportunity of speaking with the committee and will file 
further information with the committee in written form.
    Chairman Shaw. Thank you, and I thank all of the witnesses 
for your testimony.
    Mr. Camp, you may inquire.
    Mr. Camp. Thank you, Mr. Chairman, and I want to thank the 
Senators and Chairman Bliley for coming, and, Senator Levin, 
thank you for all your hard work on this. We've visited about 
this and I think this is an opportunity to try to have a public 
discussion about this legislation, and I certainly am 
sympathetic to the idea of trying to unite two adults who would 
both like to be reunited.
    Because your legislation is silent on the mechanics, which 
I understand why it may be, there is some question about how 
the authenticity of the information; how it's guaranteed that 
the identifying information is authentic. You've heard the 
testimony about whether or not only one birth parent may not 
have consented or may not have desired to be reached or a 
sibling for that matter. How would the rights of people who do 
not wish to be identified--how would they be protected under 
this legislation?
    Senator Carl Levin. The passive registries in the States 
require that both parties place the information into the 
registry. It's only if both parties want to find each other is 
there a match. There's no search provision in this bill. It's 
very explicitly not a search bill, so the answer would come, I 
think to your question, by looking through theprocesses of the 
State registries which have not had a problem. I mean, we have letters 
from State registries. For instance, we have a letter from the 
Louisiana registry, for instance, which says that the single--Louisiana 
has not encountered any problems with one-parent reunions with an 
adoptee, and we don't know of any registry that have these one-parent 
reunions which has had problems with that.
    So, the HHS, if they followed this, would follow the kinds 
of procedures in terms of information which would be in their 
registry and that would be matched with each other, that the 
passive State registries would have.
    Mr. Camp. Which would--and I apologize for being a little 
bit late to your testimony--which would be mainly possible 
place of birth, age, or estimated age; those kinds of 
identifying factors that you might----
    Senator Carl Levin. Ironically enough, it's called non-
identifying information which I think is the accurate name but 
a confusing name, because it doesn't identify the name of 
either the biological parent or of the child. It doesn't even 
necessarily identify the birth place. They may not know the 
birth place. For instance, in the case of the adopted child, 
they may not know the birth place. In the case of the birth 
mother, for instance, she may not know where the child was 
adopted; it may have been taken to a different State for 
adoption.
    This information, typically, is the following--and this is 
what I gave before, but let me give you some examples; it's 
called non-identifying information--age of the birth parents, 
description of general physical appearance, race, ethnicity, 
religion of birth parents, facts and circumstances relating to 
adoptive placement, age and sex of other children of the birth 
parents at the time of adoption, occupations, interests, skills 
of birth parents. Those are the kinds of non-identifying 
information which these passive registries then use to match 
two people who are looking for each other, and only if there's 
match do they make it.
    Mr. Camp. Well, assuming there are other siblings, for 
example, that were in the same family that were adopted. You 
have one sibling that has a desire to find his or her birth 
mother that wants to find her child, but the others don't want 
to be found and don't want to find their parents. You 
potentially expose them to being found out if the two connect 
and they find there are other children, do you not?
    Senator Carl Levin. The registries, the passive registries, 
in about 20 States have not had that problem. I think the best 
answer is the experience of the registries, the passive 
registries, and that's what we have checked. We have checked 
with those registries to see whether or not there has been a 
problem of the invasion of privacy of somebody who doesn't want 
to be found, and the answer is there has not been. So, the HHS 
would follow the procedures of the passive registry States.
    Mr. Camp. And I don't know if I'll have enough time, but 
one last question: For example, in Michigan, you cannot get 
this identifying information if the adoption occurred before 
September 12, 1980--between May 28, 1945 and September 12, 
1980. There is no release of information. Those are completely 
closed adoptions. So, you're going to have this patchwork 
quilt, so you would only be talking about adoptions after 1980, 
for example, in Michigan.
    Senator Carl Levin. In Michigan now?
    Mr. Camp. Yes, and it would require that the parents have 
not filed a statement refusing to disclose information. So, if 
they filed one of these statements or if they failed to do 
that, it's presumed that they can get information at least to 
locate a birth certificate.
    Senator Carl Levin. There wouldn't be a match in that case. 
In other words, if that information is not available for the 
registrar, you wouldn't have the match.
    Mr. Camp. Well, I realize you have a non-preemption clause 
for a very good reason in your bill, but would that, on the 
same hand, the non-preemption clause prevent the implementation 
of this national registry because of that?
    Senator Carl Levin. No, it would just mean that in those 
cases that you just identified, between 1945 and 1980, there 
would not be a match if that was a Michigan birth. There's not 
going to be a match in every case where people want to find 
each other. It seems to me what you're saying is very true; 
that you could have situations where people want to find each 
other where there is no match, because there's not enough 
information in the registry to permit the match occur, and I 
think that's very possible that will happen. But why where 
there is enough information available to people finding each 
other that the match can be made would we not want to 
facilitate two adults who want to find each other, find each 
other, just because in other cases there's not enough 
information to make the match for two adults who seek to find 
each other which is your case?
    Mr. Camp. Thank you very much.
    Chairman Shaw. The gentleman's time has expired.
    Mr. Levin.
    Mr. Sander Levin. Mr. Camp, you referred to kind of the 
patchwork, and I don't understand, really, the resistance to 
this, because what we now have is a total patchwork, because 
people who are looking for each other, if they don't know where 
to look, essentially, are thwarted, and that's the craziest 
patchwork of all, it seems to me.
    So, Senator Bennett, welcome, and we're glad you're here. 
Let me take the case that you gave of the genetic problem. In 
many cases where a person, a young man, I think it was, is in 
need of finding out some information, if that person doesn't 
know where to look even if his mother also wants to find him, 
that match may be impossible. There is no system that allows 
people from one part of this country to find someone in another 
part of the country. In your case, the young man was lucky, 
because he had some hunch where to look. Where you have a 
country of 250 million, 3,500 miles across, taking a match may 
be impossible. What this proposal does is take State registries 
and put them into a system so people can find each other. How 
do you answer the person with the genetic problem who can't 
find his mother or father, because he doesn't know where to 
look?
    Senator Bennett. My concern is not with the concept that we 
ought to facilitate situations where there is a legitimate and 
proper reason for people to get together. My concern is with 
the language of the bill that I consider to be unclear that 
could create situations where someone who has very legitimate 
reasons not to be found can have that privacy violated.
    Mr. Sander Levin. Can't we, though--first of all, there has 
to be two people looking for each other, but if there is some 
concomitant problem of confidentiality, I assume that we can 
handle that. As I understand the laws in both of your States--
and I'm not an expert on this--for example, inVirginia, there's 
a search and consent system for someone over 18. This bill doesn't even 
go that far. Both parties have to have said they want to find each 
other. In Virginia's case, if someone who is adopted wants to look for 
their birth parent, they can obtain the information that is involved in 
this bill, and then the person who is found has to say yes or no. 
That's the law of Virginia. This bill says, ``No, we're not even going 
to assist someone who is looking if the other person hasn't already 
consented.'' Now, I don't understand what the issue is in view of the 
fact that most of the States, or a good number of them, already have 
either what is in this bill, a passive registry, or something that goes 
beyond it.
    Mr. Bliley. Well, I don't think there's a need for this 
bill. It doesn't preempt the States. It's just like Dave Camp 
pointed out regarding Michigan; prior to 1980, those records 
are sealed. The reason they were sealed is to protect the 
privacy of people who don't want to be found.
    Mr. Sander Levin. But then they wouldn't be in the system. 
The law, I think, in Michigan is if it occurred before 1945 or 
after 1980--but I'm not an expert, and I don't think it 
matters. I think Mr. Camp's point, essentially, his question is 
salient. And the answer is there wouldn't be that system in 
operation then. There's a uniform code suggestion, uniform 
State law, that essentially says that if one birth parent and 
an adoptee register a willingness to disclose their identities, 
the identifying information must be disclosed. They want every 
State to do that. The problem is it's like support laws, Mr. 
Chairman. We've had to have a national system working with the 
States, not obliterating State law, because people could not 
find each other in the sense that the mother usually could not 
find the father who had escaped a state's jurisdiction. In this 
case, you have two people looking for each other. They're 
looking for each other, but State law won't be adequate unless 
you enable states to coordinate with each other somehow.
    Mr. Bliley. Well, it seems to me, that the State law is 
there. If the State law says that this is sealed, you're not 
going to get the information anyway.
    Mr. Sander Levin. That's true, but this is where State 
law--and I'll finish--doesn't seal; it allows people to obtain 
this information where the----
    Mr. Bliley. But it's not necessary.
    Mr. Sander Levin. Because you don't know where to look, Mr. 
Bliley.
    Mr. Bliley. People who adopted the child know where the 
child came from, and they----
    Mr. Sander Levin. But the person who was adopted is an 
adult, and that information is not available to that person. It 
may not always be available to the person who adopted either, 
and that isn't always available. And the question is where you 
have two consenting adults looking for each other, why not help 
them?
    Chairman Shaw. Mr. McCrery.
    Mr. McCrery. Gentlemen, I have real mixed emotions about 
what's before us today. On the one hand, I feel for those 
people who genuinely want to find their birth parent or birth 
sibling. On the other hand, I want to encourage adoptions as 
much as possible in this country, and I do share Senator 
Bennett's fear that this could, at least at the margin, 
discourage people from having their baby and putting it up for 
adoption. So, I have real mixed feelings about this.
    Let me ask just a couple of questions to try to clear up 
some things. I never did get a good answer, Senator Levin--or 
at least, I never heard a good answer--to Mr. Camp's question 
about non-consenting parents being exposed, if you will. You 
have two parents to a child that was put up for adoption, and 
let's suppose that at the time those parents decided to put 
that child up for adoption they agreed never ever to expose 
their identity to the child, and for whatever reason, one of 
the parents changes his mind 20 years later or 21 years later 
and puts his name on one of these registries, or our registry, 
and, sure enough, the child is wanting to find out, so he puts 
his name on the registry. They find each other, and the one 
parent says, ``Oh, by the way, your other parent is Ms. X.'' Is 
there anything to protect a non-consenting parent or sibling?
    Senator Carl Levin. Experience proves that that has not 
been a problem. That's the most direct answer that we can give. 
The alternative would be to require a sign-off by the other 
person which then would require a search. The person may have 
disappeared; may be dead; may not be available. So, the choice 
that the State registries have had to make is, do we try to 
make very clear and carefully make the match and then see 
whether or not there's a problem of this kind--and they've 
found no problem of this kind--or do we require the consent of 
the other parent which is frequently not obtainable and then 
would destroy the possibility, since you can't obtain that in 
many cases where the person has disappeared or died, of making 
the match. But it's experience which is my answer to you. Talk 
to the registries----
    Mr. McCrery. Yes, I heard that answer earlier.
    Senator Carl Levin. Well, let me--if I could just read the 
Louisiana letter, for instance. Louisiana has not encountered 
any problems with one-parent reunions and an adoptee.
    Mr. McCrery. What does that mean?
    Senator Carl Levin. That means there have been no problems 
of invasion of privacy of the other parent.
    Mr. McCrery. Oh, that's a specific reference to that 
problem, that potential problem?
    Senator Carl Levin. That is what we asked them about.
    Mr. Bliley. But there is no guarantee.
    Mr. McCrery. Yes, that was my next question. There's 
nothing in your bill, though, that requires consent of the 
other parent or----
    Senator Carl Levin. We follow the State registry in that 
regard. In other words, the State passive registries----
    Mr. McCrery. Well, in Louisiana, for example, if I'm not 
mistaken, they require an hour of counseling with somebody 
who's name goes on the record, the registry, and I'm sure in 
that counseling they probably go through, ``Do you know who the 
other parent is? Did you have some agreement? Does he have an 
objection?'' Something like that; that's my guess that they 
would go over those things. So, that could lead to fewer 
problems.
    Senator Carl Levin. I think that's right.
    Mr. McCrery. But you're legislation doesn't have any of 
that, does it, of counseling?
    Senator Carl Levin. Well, we leave the HHS to implement 
this by regulation the way they implement a lot of our laws by 
regulation, and that would surely be proposed as part of----
    Mr. McCrery. So, HHS could counsel everybody who wants to 
join the national registry? And this is supposed to have no 
cost?
    Senator Carl Levin. They could require counseling the way 
other registries require counseling. No cost means you've got 
to pay a fee which covers the cost, and if the counseling 
costs, for instance, in any States' registry, there's a cost.
    Mr. McCrery. So, you anticipate charging a fee to put your 
name on the registry that would cover all administrative costs?
    Senator Carl Levin. That is correct.
    Mr. McCrery. What about the potential problem of people 
supplying information to the national registry and that 
information is not authentic? It's not accurate; it's made up; 
it's not authentic. In the States' case, they have the records, 
so they can go into the records and verify, authenticate, 
information that's provided by a person. We're not going to 
have that ability, are we, because we can't force the States to 
divulge their records to us? So, how do we solve that problem 
at the national level that the States solve by going into the 
records?
    Senator Carl Levin. I'd have to check out my answer on this 
question, because I'm not sure that I'm right, but I don't 
believe that most States with passive registries go into 
records. I think those records are sealed, and the match has 
got to be made on the basis of information which is available 
to the registry without going into the sealedrecords, but I'd 
have to double check that to give you a sure answer to your question.
    Mr. McCrery. Well, we're going to have some folks, I think, 
from the States in a later panel, so we can maybe get the 
information from that panel.
    Senator Carl Levin. Yes, they could give you a more certain 
answer. If I could, Mr. Chairman, for the record, If I could 
put in a letter from the organization called Adopt a Special 
Kid, addressing the abortion issue, indicating in their letter, 
in their statement, that there's no data whatsoever to support 
the claim that there will be any increase in the number of 
abortions?
    Chairman Shaw. Without objection, it will be made a part of 
the entire record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.031
    
    Chairman Shaw. Mr. Cohen?
    Mr. Watkins?
    Mr. Watkins. I've been sitting here trying to wrestle 
through this. I'm an adoptive dad. I have an adopted daughter. 
I know we can come up with all the different things that might 
happen. My adopted daughter's biological mother was a drug 
addict and an alcoholic. I'm trying to figure the link or what 
the situation would be of protection of the young ladies--I 
shouldn't just say the young ladies--but there are many cases 
out there where young ladies are given up because of abuse, 
sexual abuse, and many other things. How do we prevent--I know 
it's supposed to be, I guess, one parent--how do we prevent 
that possibility of maybe the other parent that was abusive 
from being linked up some way?
    Senator Carl Levin. Are you assuming that the child and one 
parent want to find each other?
    Mr. Watkins. That's the case----
    Senator Carl Levin. In your case?
    Mr. Watkins. Yes, in this case, I won't use that as a 
person but as a situation--I know there's probably case after 
case like that out there, and I know probably the most 
difficult thing I've ever done is to go and to ask that 
biological mother to give up her daughter, and the question I 
have is how do we prevent the young ladies from having to go 
through that turmoil again?
    Senator Carl Levin. But I want to be real clear that in 
your question, the young lady wants to find the biological 
mother.
    Mr. Watkins. Right, and only the biological mother.
    Senator Carl Levin. Only. Okay, but wants to find the 
biological mother, and she's an adult. The adopted child is now 
an adult. That's your case?
    Mr. Watkins. That's the case.
    Senator Carl Levin. Then she wants to find her biological 
mother, and if her biological mother wants to find her, that's 
the case that we're talking about? The question is should we 
help them find each other? That's the question, and the answer, 
I believe, is yes, and you're saying what about the 
possibility, then, that the father who she doesn't want to 
find?
    Mr. Watkins. She was living in a home there. The parents 
may or may not still be living together or they have the 
complications there, and that turmoil that could occur again in 
the life of that young lady.
    Senator Carl Levin. I think that that's Congressman 
McCrery's question, although----
    Mr. Watkins. I started to say he was coming close to it.
    Senator Carl Levin. Yes, and the State registries follow--
have the same question. They face the same question, and they 
have decided that they will allow two adults who want to find 
each other to find each other, and they will help two adults 
who want to find each other to find each other and face that 
same question, what about that second biological parent, 
though? Isn't there a possibility somehow they will find out? 
Now, through counseling or other means, the State registries 
have not had a problem in this regard that we can determine, 
but that's best checked out with the State registries. They 
have not had a problem, but then you must weigh the need of 
people who are looking for each other to find each other 
against that possibility which is not proven to be a reality in 
experience. That's the answer which I think the State 
registries will give to you, but that's the experience of the 
State registries. It's the same challenge that they face.
    Mr. Watkins. Senator, if you've ever dealt with such an 
abusive environment, there is a tremendous amount of 
manipulation that takes place in the minds of some people who 
either have an alcoholic or drug situation or many other 
problems that They will manipulate any way, shape, form, or 
fashion to take advantage and they could put the name on that 
registry along with the other parent, and it's concerning, to 
say the least. How do you protect that person that maybe would 
like to try to find that mother to a certain extent, but they 
don't want to have anything to do with an experience that they 
have a real problem about today.
    Senator Carl Levin. And I think your State registry could 
give you the way in which that person has not been ``outed''--
the word that's been used here--has not had their privacy 
invaded in the practice and reality of State registries that 
are passive registries. It has not proven to be a problem. To 
not allow, not facilitate, two adults who want to find each 
other to find each other because of the possibility that you 
raised which has not proven to be a reality, it seems to me, is 
the wrong solution to a real problem of adults who seek to find 
each other.
    Chairman Shaw. The time of the gentleman has expired. Go 
ahead, do you one quick one?
    Mr. Watkins. First, quickly, what do you consider an adult 
ought to be. Have you ever dealt with these kind of people?
    Senator Carl Levin. Yes.
    Mr. Watkins. The manipulation that comes about?
    Senator Carl Levin. Yes.
    Chairman Shaw. Mr. Jefferson?
    Mr. Jefferson. I can see both sides of the question, and I 
know what you're trying to do with the nationalizing of this 
effort to make sure that people who aren't in the same State 
have access to information from people across other parts of 
the country as Sander said, and I think that probably is a 
reasonable idea. The bill permits for siblings who are looking 
for each other to register here, not justparents and children, 
right?
    Senator Carl Levin. Correct.
    Mr. Jefferson. You've said that problems haven't arisen in 
various States concerning questions which McCrery and which 
Watkins raised a few minutes ago, and you said pretty 
emphatically--and, perhaps, it's true--but how do you know 
that--because of each one of these passive laws is a little bit 
different. The one in Louisiana is a little different from the 
one you proposed here, and what reports have you gotten about 
what really happens with respect to these issues they've 
raised? I mean, how certain are we about the answers you've 
given? You may have nothing available to you to show that there 
are problems, but that doesn't mean there aren't any, and how 
do we make sure that we have some way to deal with it in this 
legislation?
    Senator Carl Levin. I think that the witnesses that support 
the bill will be testifying will address that issue in terms of 
their research. That is a matter of research. We've done 
research in our office talking to all the registries, but that 
doesn't help you satisfy yourself for me to tell you that we've 
done that research. You would have to hear, I think, from your 
own registries on that question, and, perhaps, those of you who 
have these registries could check with your own registries in 
your own States. I think that would be the best evidence that 
you could get.
    Chairman Shaw. Our registers here, so I'm going to be able 
to do that in just a few minutes.
    Mr. Jefferson. Are there any complications that arise with 
the siblings who are looking for each other and who have the 
good fortune to find each other with parents who are involved 
but don't want to be found? Anything like that going on? Is 
there any difference between a parent and a child looking for 
each other and siblings looking for each other and the 
complications and implications that result with respect to 
that?
    Senator Carl Levin. Not that we are able to determine. In 
terms of our survey of registries. We have the experience with 
these registries in most States, and the issue is since they 
can't do the job under the circumstances which we've 
identified, should we then be able to do the same thing State 
registries do and fill in that gap, but the experience of the 
State registries in this area, it seems to me, should be 
reassuring to us that we're not creating a new animal here. 
We're just simply patterning this over the most modest of the 
registries which are the passive registries.
    I think the best answer that would come from the registries 
of the States--and I can't tell you that there's never been a 
problem with any match in any registry; I doubt that that would 
be an accurate statement, but I can tell you that I don't 
believe this has proven to be a problem with the registries, 
and they would tell you that these passive matches have worked 
very well, and they may have a few wrinkles or problems, but, 
generally, they have.
    Mr. Jefferson. Thank you.
    Chairman Shaw. Thank you. I want to thank this panel. We're 
going to have to--by the way, this is a very complex issue 
that's full of fish hooks and a lot of problems that we're 
going to have to try to deal with.
    Senator Carl Levin. Mr. Chairman, may I also add to the 
record just a couple additional letters including the----
    Chairman Shaw. Yes, the gentleman may add anything he 
wishes to the record.
    Senator Carl Levin. Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.032
    
    [GRAPHIC] [TIFF OMITTED]63457A.033
    
    [GRAPHIC] [TIFF OMITTED]63457A.034
    
    [GRAPHIC] [TIFF OMITTED]63457A.035
    
    [GRAPHIC] [TIFF OMITTED]63457A.036
    
    [GRAPHIC] [TIFF OMITTED]63457A.037
    
    Chairman Shaw. We have a vote on the floor. We're going to 
recess for approximately 15 minutes, and then we'll look 
forward to the second panel.
    [Recess.]
    Chairman Shaw. I apologize to those in attendance, and 
particularly our next panel. We had three votes. And that was 
the--three 15-minute votes, so that's where it was.
    Our next panel is already seated. Josette Marquess, who is 
the coordinator of the Florida Adoption Reunion Registry and 
the Post Adoption Services Unit, Department of Children and 
Families in Tallahassee, Florida; Naomi Cahn, who is the 
associate professor of Family Law at George Washington 
University Law School; JoAnne Swanson, who's director of Post-
Adoption Support Services, Wetmore Michigan; Robert Robinson, 
who is the commissioner, National Conference of Commissioners 
on Uniform State Laws, from Portland, Maine; David Wilson, who 
is an adult adoptee from Arlington, Virginia, and Carol 
Sandusky, who is an adult adoptee from Doylestown, 
Pennsylvania.
    Welcome, all of you. We have your full statement, which 
will be made a part of the record. And we invite you to 
summarize.
    Ms. Marquess.

 STATEMENT OF JOSETTE MARQUESS, COORDINATOR, FLORIDA ADOPTION 
REUNION REGISTRY AND POST ADOPTION SERVICES UNIT, DEPARTMENT OF 
             CHILDREN AND FAMILIES, TALLAHASSEE, FL

    Ms. Marquess. Mr. Chairman and distinguished members of the 
subcommittee, good morning and thank you for the invitation to 
testify before this committee on the Florida Adoption Reunion 
Registry and the possibility of the establishment of a National 
Reunion Registry.
    My name is Josette Marquess, and I am the Coordinator of 
the Florida Adoption Reunion Registry. Our registry is located 
within the Florida Department of Children and Families.
    The Florida Adoption Reunion Registry was established in 
1981 and became operational in Fiscal Year 1982. The registry 
was originally located with the Florida Bureau of Vital 
Statistics and was moved to the Florida Department of Children 
and Families in 1985.
    The Florida Adoption Reunion Registry is a confidential, 
cross-referenced file of people who are or were the principal 
parties in an adoption. This includes adult adoptees, birth 
parents, siblings, grandparents and adoptive parents of minor 
and adult children. Our registry is passive in that we wait for 
a match. We do not actively search out either the adoptee or 
the birth parent to encourage one of the other to register with 
us. It is the only method that we have in Florida to reunite 
adult adoptees with members of their birth families without 
either having to take court action.
    The success of the Florida Adoption Reunion Registry rests 
primarily on our ability to carefully verify all information 
submitted to us before we enter an applicant into the registry 
database. All applicants to the registry are required to 
provide proof of identification when they submit their registry 
application. Once we receive a completed registry application 
it is sent to the Office of Vital Statistics for verification 
of the birth and of the adoption. The application is then 
returned to us with notice of verification and only at that 
time is an individual listed in our registry.
    When we have a match, we determine that there is a match 
between an adult adoptee and the birth parent by matching 
several factors: the maiden name of the birth mother at the 
time the baby was born and subsequently placed for adoption; 
the date and place of the birth of the child; and, in Florida, 
the birth registration number shown on the original birth 
certificate and on the amended birth certificate are shown to 
be identical. And, if warranted, we will look at various other 
social factors from the adoption record that they may be needed 
to confirm the identity of the birth mother.
    Each registrant in the Florida Adoption Reunion Registry 
has voluntarily indicated that they wish to have their 
identities revealed and made known to other parties involved in 
the adoption in the event that there is a match. If a 
particular registrant does not wish to have their identity 
immediately known, they have the option of naming another 
person, agency, or attorney to act as their agent in the event 
that there is a match.
    As of April of this year, there were 5,600 people in the 
Adoption Reunion Registry. The breakdown is: 3,133 adult 
adoptees; 2,165 birth parents; 74 grandparents; 147 siblings; 
and 149 others. ``Others'' are generally the people who have 
been named as an agent, for an adult adoptee or birth parent.
    We have had approximately 135 matches since the inception 
of the registry, the majority of these matches occurring since 
1992. We average two to three matches per month. We have found, 
as is the case with most State registries, that as the database 
grows, the number of matches increases. We have a number of 
people in the registry that we realize there probably will 
never be matched. These are older adoptees and older birth 
parents. However, for us, hope springs eternal, and we continue 
to keep these applications active. There is always the 
possibility that we may be able to make a match between 
siblings or another family member at some later time.
    The cost of the operation of the Florida Adoption Reunion 
Registry is approximately $16,500 a year. That's the annual 
salary for a part-time employee, who happens to be an MSW 
student, who has the responsibility for processing checks, 
verification of the birth and adoption information with Vital 
Statistics, and entering the information into the database.
    The position is funded in part by registry fees, which is a 
$35 application fee for the initial registration, and $10 for 
the update fee. The remainder of the salary for this position 
is paid for out of general revenue funds earmarked for social 
work students.
    Florida is a sealed adoptions record State. That means that 
at the time the adoption is finalized in the court that all 
records associated with the adoption are sealed by State law. 
The records may only be unsealed by the court if the adult 
adoptee or the birth parent or the adopted parent are able to 
provide to the court sufficient reasoning to unseal the record.
    We see records unsealed in Florida primarily because of a 
documented medical or psychological illness. We do not unseal 
records in Florida to determine if there is a match. We do, 
however, have access to confidential birth and adoption 
information from the Florida Department of Health, Office of 
Vital Statistics. This cooperative agreement is allowed for by 
the statute that created the registry, and it allows us to 
assure the veracity of the birth and adoption information. When 
we make a match, we are reasonably certain that we have 
connected the right adult adoptee with the correct birth mother 
or member of the birth family. Because of our verification 
process, we have assured ourselves, and more importantly we 
have assured the people involved in the adoption, that this is 
a correct match based on factual information. And yet, almost 
without fail, when we notify a registrant that there has been a 
match in the registry, the first question they ask is: ``are 
you sure?''
    I was asked to review and consider S. 1487. I believe that 
without verification of information from both the adoptee and 
the birth parent, the possibility of identifying the wrong 
person is very great. And it can be heartbreaking for both the 
adoptee and the birth parent when they finally find out they 
have been in touch with the wrong person.
    Within the last six months, our office has been contacted 
by approximately 20 people who have found each other on the 
Internet. All were sure that they had finally found the right 
person that they were looking for. However, when we have taken 
them through our registry process, we were only able to verify 
two matches.
    As I understand S. 1487, it states that no State's laws 
regarding adoption and confidentiality would be pre-empted by 
this legislation. My concern, then, is how do you put twopeople 
in touch with each other for the purpose of effecting a reunion if you 
don't know for sure that you are reuniting the right two people?
    Finally, in my consideration of this legislation, I have 
some thoughts that I'd like to take a minute to share with you 
about adoption reunions. Not every reunion is happy. Not every 
reunion is good for the adoptee, the birth parent, or for the 
adoptive family. I have spoken with birth mothers, adoptees, 
and adopted parents who have told me they wished they had not 
pursued an adoption reunion. I've also spoken with birth 
mothers who have kept their secret for all of their adult 
lives; that for 25, 35, 45 years they have never uttered a word 
to anyone that they had a child out of wedlock and placed that 
child for adoption. These women are fearful today that their 
adult children would not understand that husbands would leave 
and that their worlds would be shattered. Many of these birth 
moms signed to consent for adoption of their baby hoping and 
praying that they had made the correct decision, but also 
expecting that the adoption agreement they entered into would 
be honored for all of their entire lives.
    As I told you before, I am also court ordered to search for 
birth moms to obtain medical information and to determine if 
they wish to have contact with their adult children. Within the 
last four years, a full 40 percent of the birth moms that I 
have been court ordered to search for and contact have declined 
to have a reunion with their birth child.
    My final concern in having a national registry with no 
method of verification has to do with the possibility of 
creating a cottage industry of private searchers, 
investigators, agencies, groups, and individuals who are 
waiting in the wings to verify--to provide verification that 
adoptees and birth mothers and families desire. They are in the 
search business for financial gain. This is a lucrative 
business and one that, for the most part, is entirely 
unregulated. Adult adoptees and birth parents searching are 
among our most emotionally vulnerable, and they will pay almost 
anything to get the answers they want. As I stated earlier, I 
am court ordered to search for both adoptees and birth parents, 
and a successful search usually can be conducted for less than 
$400. Yet it is not unusual for me to hear from birth parents 
and adult adoptees who have paid thousands of dollars for an 
unsuccessful search.
    I would suggest that instead of the establishment of a 
national registry that advocates for more openness in adoption 
and the sharing of adoption information work instead with their 
individual State legislators to move toward more openness and 
sharing of information in the individual State adoption 
process.
    Mr. Chairman, I hope that this information has been helpful 
to you, and I thank you and your colleagues in consideration of 
this very important matter. I thank you for the invitation and 
the opportunity to testify before this distinguished committee.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.038
    
    [GRAPHIC] [TIFF OMITTED]63457A.039
    
    [GRAPHIC] [TIFF OMITTED]63457A.040
    
    [GRAPHIC] [TIFF OMITTED]63457A.041
    
    [GRAPHIC] [TIFF OMITTED]63457A.042
    
    [GRAPHIC] [TIFF OMITTED]63457A.043
    
    Chairman Shaw. Thank you.
    Ms. Cahn.

  STATEMENT OF NAOMI CAHN, ASSOCIATE PROFESSOR OF FAMILY LAW, 
            GEORGE WASHINGTON UNIVERSITY LAW SCHOOL

    Ms. Cahn. Chairman Shaw and Members of the Subcommittee on 
Human Resources, thank you for providing me with the 
opportunity to testify before you today on adoption reunion 
registries. And I also want to thank Senators Levin and Craig 
for their leadership and vision concerning S. 1487, the 
National Voluntary Mutual Reunion Registry.
    My name is Naomi Cahn, and I teach Family Law at George 
Washington University Law School here in Washington, where I am 
an Associate Professor of Law. I am, however, appearing in my 
individual capacity, and my testimony does not represent the 
official position of George Washington University. I've written 
extensively in the Family Law area, including articles 
concerning adoption.
    In addition to my professional experiences, I also have 
relevant personal experiences. My husband, who is with me here 
today, was adopted as an infant into a warm, loving, and 
wonderful family that I, of course, know quite well. My husband 
had maintained, however, for the first 13 years that he and I 
knew each other that he had no interest in finding out about 
his biological parents; and, in fact, he frequently said he 
didn't understand people who had that interest. He loves his 
family, and he felt no need to find out more about his past.
    When I was pregnant with our first child, he began to 
search. He found out the name of his birth mother, 
DorothyLouise Simpson. He found out that she had been searching for 
him, too. But he also found out that she had died of a brain tumor. And 
my husband was quite stunned and devastated to discover that his birth 
mother had searched unsuccessfully for him.
    My husband did find his birth grandmother, still alive at 
the age of 85 in a small, rural east Texas town. They have made 
each other so amazingly happy: we'll be going tomorrow to help 
her celebrate her 90th birthday. Finding his birth grandmother 
has changed my husband's life in the most wonderful way, and he 
firmly believes in the importance of allowing adult adoptees, 
when and if they are ready to do so, to contact their 
biological parents.
    Now the remainder of my testimony in support of the Federal 
registry will focus on three areas: first of all, the general 
need for adoption registries; second, the reasons for a 
specifically federal, as opposed to state, mutual voluntary 
adoption registry; and third, the methods by which the registry 
proposed in the Senate bill serves to protect the 
confidentiality of adoption records.
    First of all the need: if both an adult adoptee and a 
biological parent are looking at the exact same moment, they 
may never meet each other. If they do meet, it is often only 
after what will probably be great expense, many frustrations, 
and many years of waiting; or worse, too late, as happened in 
the case of my husband. A Federal Mutual Voluntary Adoption 
Registry, as authorized by the Senate legislation, allows 
biological parents and siblings to make contact with each 
other, but only after they've each independently and 
voluntarily filed with the registry.
    The need for contact between the unknown members of the 
adoption triangle is very strong. When you read stories by many 
biological parents and stories by many of their adopted 
children, you feel an enormous sense of pain that they have 
been unable to contact each other. Not all, of course, feel 
that way. For adoptive parents, who care passionately about the 
emotional health of their children, acceptance of their 
children's search, if and when the children do decide to 
search, is important. I have talked to many adoptive parents, 
and they understand that finding a biological past may be 
significant to their children. They also understand that, by 
searching, their children do not seek to replace them.
    A very brief history of adoption itself shows that it was 
not the purpose of adoption reformers to prevent adult adoptees 
and biological parents from contacting each other when adoption 
records first became confidential. Indeed, the proposed federal 
registry is entirely consistent with the history of adoption, 
which is focused on the child's best interest and letting the 
adult adoptee, when ready, find about her biological parents 
and siblings.
    Now turning to the federal role, there are, of course, 
state registries, which function quite well, and there are also 
a host of other registries, some on the Internet, as well as 
others that are available that help biological parents and 
their children, who are adult adoptees meet each other. But 
there are logistical difficulties with these registries.
    First, there's no communication between States with respect 
to the people in their registries, and Senator Levin--I won't 
repeat what he said--but he explained quite eloquently the 
problems given the mobility of our society with someone who 
might be born in one State, adopted in another State, and have 
siblings in third, fourth, fifth States. Even if States 
establish procedures to share information, as proposed by the 
Uniform Adoption Act, which we're going to hear some testimony 
about in a minute, this would not solve the problem. States 
would continue not to collect information uniformly and might 
establish inconsistent procedures concerning when information 
could be released.
    Second, registration with many State and other types of 
registries may be expensive. Someone who wants to register with 
more than registry needs to find out about other registries and 
may have to pay fees to register with each one. While some may 
be concerned about the need for a Federal registry in the 
traditionally State-based area of family law, the Federal 
registry does not encroach on State autonomy at all. Unlike 
other federal legislation in the adoption area, or in other 
areas of family law, it places no obligations on States, nor 
does it require States to change their adoption practices in 
any way. It simply serves as a resource for adult adoptees and 
their siblings and birth parents who want to contact each 
other. Moreover, as noted historian Rickie Solinger points out 
in statements submitted to these hearings, ``the Federal 
Government played a significant role in creating and 
facilitating adoption policy in the United States in the 
decades since World War II.'' So the federal government has 
played a substantial role in adoption in the past.
    Finally, let me emphasize that the information that would 
be available to a registry, and through a registry, would not 
violate State laws on the secrecy of adoption records.
    First of all, the Senate legislation itself provides that 
it would not preempt State laws on the confidentiality of 
adoption records.
    Second, the information provided to the federal registry 
would be information personal to the adoptees, their siblings, 
and their biological parents.
    Third, the federal registry provides a legitimate method 
for facilitating contact, rather than the current system, in 
which adoptees, birth parents, and siblings may seek to 
circumvent State laws on adoption by trying, and 
frequentlysucceeding, in finding information without the consent of the 
other party.
    Mr. Chairman and members of the subcommittee, I have 
discussed the proposed legislation authorizing the creation of 
the Federal Mutual Voluntarily Adoption Registry with many 
people throughout the country, some of whom are involved in 
adoption issues, but most of whom are not. They simply cannot 
believe that there could be any controversy in allowing adult 
adoptees to contact biological parents or siblings who have 
also indicated that they too want contact. What the Senate 
legislation would authorize is simply a mutual and voluntarily 
registry at no cost to the Federal Government and available 
only to adults. This can be done, but only if there is the will 
to do it.
    I want to thank you for allowing me to testify on an issue 
of such public, as well as of such personal, significance.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.044
    
    [GRAPHIC] [TIFF OMITTED]63457A.045
    
    [GRAPHIC] [TIFF OMITTED]63457A.046
    
    [GRAPHIC] [TIFF OMITTED]63457A.047
    
    [GRAPHIC] [TIFF OMITTED]63457A.048
    
    [GRAPHIC] [TIFF OMITTED]63457A.049
    
    Chairman Shaw. Ms. Swanson.

 STATEMENT OF JOANNE SWANSON, DIRECTOR, MICHIGAN POST-ADOPTION 
                 SUPPORT SERVICES, WETMORE, MI

    Ms. Swanson. Mr. Chairman, members of the Subcommittee on 
Human Resources, I do really thank you for this opportunity to 
speak before you. This issue, this bill has great significance 
for me both personally and in my work with adult adoptees and 
with birth parents and adoptive families in my position as 
Director of Post-Adoption Support Services in Michigan's upper 
peninsula. I am also a birth mother. I am one of the people 
about whom many of you are concerned about protecting the 
privacy, and I really appreciate that. But there are some 
points about privacy that I'll get into my discussion that may 
cast a little different light on that.
    I'm proud of my State of Michigan. I'm proud that we have 
some Michiganders here. Senator Levin, of course, co-sponsor of 
the bill is from Michigan. We also have two of the subcommittee 
members, Congressman Camp and Congressman Sander Levin from 
Michigan. I really am glad to be among you today.
    I would like to hold up Michigan as an answer to some of 
the concerns that have been expressed here today. These are all 
legitimate concerns, and I'm sure they've been asked at the 
State level, every time that a State has considered a piece of 
legislation that would establish a mutual consent registry or 
that would go a step beyond and lay out a plan for confidential 
intermediaries, or even to give adult adoptees access to their 
birth records. Those tend to be the three kinds of legislation 
that are being considered. And Michigan has all three. Perhaps 
you can look to our State to see how the results of a national 
registry might impact people in those categories.
    In Michigan, there is a mutual consent registry that has 
been active since 1980. More recently, legislation was 
considered to establish a confidential intermediary program, 
and also to release the original birth certificates to adoptees 
in certain categories, beginning those that were released for 
adoption prior to a date in 1945. So we have some people who 
have full disclosure. We have others who have only partial, 
non-identifying information, and who can use the services of a 
confidential intermediary. Then we have those for whom, by 
default--the new adoptees now who turn 18 as of a date in this 
year, September--will have the access to their birth 
information unless there would happen to be a denial in the 
file.
    So we have a little bit of everything. I think this is 
significant because many of the concerns that were brought out 
this morning have not happened in Michigan. The litmus test for 
me is that when the legislation was being proposed to take this 
a step beyond, to go to the confidential intermediary process, 
and to release birth certificates to this first group of 
adoptees, all of these concerns certainly would have surfaced 
at that time. And they didn't. That, to me, is significant 
because ours is one of the oldest mutual consent registries. 
All of the potential that has been expressed here this morning 
for the outing has been here for 18 years. Yet, 15 years later, 
we were able to take this to the next step, to have a what some 
people refer to as search and consent. Others call it a 
confidential intermediary system.
    If these issues had been a big problem in Michigan, we 
would not have been able to get to the next step. Three years 
after the confidential intermediary system has been in place, 
we have not yet had a problem. So I think that Michigan can sit 
pretty high in paving the way for something like this. But I 
also want to mention that it's not enough. It's not enough to 
have a strictly State focused avenue for adoptees. I want to 
mention specifically why.
    In my work as a confidential intermediary, I work with 
people who have no idea what the adoptive process is. Many 
people don't even know that adoption records are kept at the 
State level. They have no idea where they're being kept, and so 
they quite often will look to the Federal level. They say, I 
wish I could get on Oprah. Maybe I could find my mother.
    I just did a case for an adoptee who is 67 years old. We 
found three full siblings who have known about her since 1972. 
They could have, at any time, filed a mutual consent form with 
the State of Michigan, and they could have been reunited--26 
years they waited. One of them lived in Colorado, had no idea 
what Michigan law was like. One lives in Wisconsin--thought 
that the sister had gone into Wisconsin and hadn't. Another 
lives in Minnesota--had no idea at all. Twenty-six years this 
family wasted. Through a national registry they very possibly 
could have been reunited.
    I really feel this is an issue we have to consider as a 
humane issue for adult adoptees and birth parents. I feel that 
there's a bit of a smokescreen. I want to just mention in 
closing the concern for confidentiality, which is a term that 
is used sometimes, or privacy. In Michigan, I fit into the 
category in that middle group where my daughter, for example, 
would have had to have used a confidential intermediary to find 
me. I'm the group that is being so protected. Yet, back in 
1960, my surname was on the adoption decree.So she could have 
gone searching for me. I could have picked up a newspaper and read an 
ad in the classified section looking for me. My records are supposedly 
sealed, so there's a lot of ambiguity there. I would rather she could 
have found me through a mutual consent registry. I would rather have 
been able to enter my name. It would have been much safer and much more 
protective.
    I really thank you for this opportunity to speak with you 
this morning. And I urge your support. I believe it's a 
worthwhile and a very safe and a very humane bill. Thank you.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.050
    
    [GRAPHIC] [TIFF OMITTED]63457A.051
    
    [GRAPHIC] [TIFF OMITTED]63457A.052
    
    [GRAPHIC] [TIFF OMITTED]63457A.053
    
    Chairman Shaw. Thank you.
    Ms. Sandusky.

          STATEMENT OF CAROL SANDUSKY, DOYLESTOWN, PA

    Ms. Sandusky. Hello, my name is Carol Sandusky, and I 
wanted to give you some highlights from the paper I prepared 
and sent in on Friday afternoon.
    Thank you for inviting me to come here today. It is rather 
overwhelming being in front of all these experts and officials, 
and I'm very nervous. But I will do my best, and try to answer 
any questions that you have for me.
    I was adopted by Jeanne and Tom Sandusky, my parents, who 
are here with me today, to give me moral support. In my five 
minutes, I want to talk to you about two things. I would like 
to tell you my story very briefly, so you will know what can 
happen to people when privacy is not protected. I also want to 
give you some problems I encountered, tell you some of the 
rules I have thought of to take care of some of these problems, 
and ask you, because of those rules, not to pass Senator 
Levin's Federal Reunion Registry Law or any other Federal law 
on adoption records.
    I was adopted at the age of 3 from a public agency. My 
parents were told I was removed because of abuse. As an 
adolescent, I rebelled. I was very depressed and out of 
control, and after several hospital placements, a group home 
placement, and lots of love and therapy from my mother and 
father, I managed to get back on track. I was just getting 
settled in 1992 when a social worker from the agency where I 
was adopted called my parents. She said my older biological 
sister wanted to contact me and asked for my phone number and 
address. My parents said no, but they would give me the 
information and message. They told me my older sister was 
searching. It was like a bomb had fallen on my family. My 
parents encouraged me not be scared, and they said they would 
support any decision I made, including offering to buy a flight 
ticket to go see her.
    I returned the social worker's call, who said my older 
sister really wanted to see me, and then started telling me all 
sorts of details. I told her I only wanted my medical history. 
I had just come through a difficult time, and I needed time to 
think. When the social worker asked permission to give my 
sister my phone number, I said no.
    Within a week, the social worker called back and gave me 
even more details. She tried to push me to contact my sister, 
gave me my birth mother's phone number over the phone. I was 
very upset, and I repeated that I only wanted medical 
information. The only medical information she ever gave me was 
that cancer ran in my family.
    I hung up the phone. I was very angry. I called my parents, 
and we cried together. We just couldn't understand how a social 
worker could give all this information over the telephone while 
I was at work. So my family and I called the social worker's 
supervisor, and we were told the social worker had done nothing 
wrong, and that my mother and I needed therapy.
    Next, we turned to the district attorney. And he had asked 
that there be--and we had asked that there be an investigation 
and criminal charges filed. But he did nothing. A week later, I 
got a letter from my sister, and you can guess how she got my 
address. The letter was full of even more upsetting information 
I had not wanted.
    Next, we called other agencies and asked them if they gave 
out confidential information without permission and they said 
no. They said this behavior was unacceptable. So then we had to 
hire an attorney to pay to have letters sent out to these 
biological family members to tell them to please stop harassing 
us and to leave us alone.
    After that, I got another 17-page letter from my birth 
mother talking about murder, drug abuse, abandonment, et 
cetera, et cetera, which was very upsetting. My birth mother's 
letter had even more names and addresses and numbers of aunts 
and uncles, and a letter from my birth father was included. I 
can't begin to tell you the feelings that resurfaced.
    Now another letter arrived from my sister telling me not to 
be upset with the social worker, enclosing newspaper clippings 
about her success in searching, about how she wentabove and 
beyond the law to reunite families; about how she would give 
information out, and, even if people didn't want it, hoping they would 
do the ``right thing.''
    Eventually, I decided to hire a lawyer to try to sue. But 
the social workers are immune from lawsuits if they work for 
the State. After years of efforts, we did not get any 
satisfaction from the laws. Pennsylvania hurt me, and they hurt 
my family.
    The situation has now calmed down after six years. I have 
stopped getting letters and calls, but I've had to make many 
changes in my personal life to try and restore some small 
amount of privacy. I did decide, as a result of the experience 
I had, that I would do whatever I could do to try and prevent 
the same thing from happening to others, and that is why I have 
spoken out and gone on shows and given interviews.
    The searchers, the social workers, the people who want to 
change the laws to destroy privacy says no one minds if people 
come knocking. They just told me to say no. I said no over and 
over and over again. But no one listened. And the law never 
once succeeded in stopping them from stalking me and my family.
    I am here today to talk about Senator Levin's bill because 
I hope this important gentleman will understand, now that he 
has heard my story, that many people are hurt when privacy is 
invaded. Many of us do not want to be contacted, even by a 
State social worker. We want to say yes on our own, without 
pressure, contact, or guilt trips. It isn't because we hate or 
reject anyone, Senator. We just want to be left alone unless we 
say yes.
    But Senator Levin's bill just says do a National Reunion 
Registry. And since I support State Reunion Registries as a 
part of the Uniform Adoption Act, you should ask, what's the 
difference? The difference to me is that once the Federal 
Government gets into the picture, even if started out with 
something to protect privacy, there is absolutely nothing to 
keep the Federal registry from going little by little, year by 
year toward opening records.
    I have looked at some of the information on the States that 
started out with safe, decent sounding laws, which now have 
almost gone to totally open records. If the legislature in 
Tennessee can go downhill to open records, so can the Congress. 
Go Federal, and you set up all the adoptees, all the birth 
parents, all the adoptive parents in the country for invasion 
of privacy. And if you think I'm kidding, ask yourselves, why 
do some of the people who want open records at the State level 
seem to be supporting Senator Levin's bill. Why do they attack 
the Uniform Adoption Act? They know Senator Levin's bill is the 
first step to what they have as their real goal: totally open 
records of all kinds across America.
    I thank you, again, for allowing me to address you, and I 
will certainly try to answer any questions that you have.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.054
    
     [GRAPHIC] [TIFF OMITTED]63457A.055
    
    [GRAPHIC] [TIFF OMITTED]63457A.056
    
    [GRAPHIC] [TIFF OMITTED]63457A.057
    
    [GRAPHIC] [TIFF OMITTED]63457A.058
    
    [GRAPHIC] [TIFF OMITTED]63457A.059
    
     [GRAPHIC] [TIFF OMITTED]63457A.060
    
    Chairman Shaw. Thank you.
    Mr. Wilson.

          STATEMENT OF R. DAVID WILSON, ARLINGTON, VA

    Mr. Wilson. Thank you, Mr. Chairman. I was looking at 
today's date, and I realized it was two years ago that my 
former boss, Senator Bob Dole, stepped down from the Senate. So 
I really appreciate the opportunity to come and testify with 
you here today.
    My name is Dave Wilson, and I'm adopted. I hope sharing my 
personal experiences will help illustrate the importance of 
establishing a national registry for adoptees and birth 
parents.
    Nearly 31 years ago to this day, I was adopted by my 
parents, Roy and Ruth Ann Wilson. I have always known I was 
adopted and have never questioned that the Wilsons, including 
my three sisters--Tami, Teresa, and Liz--are my real family.
    When I decided to seek out my birth parents eight years 
ago, I never intended to meet them face to face, let alone 
establish a relationship. I wanted to thank them for giving me 
a chance by bringing me into this world. To some, a simple 
thank you might seem silly. To me, however, my birth parents 
gave me the greatest and most precious gift, the gift of life.
    My search began in 1991, when I contacted Lutheran Social 
Services in Seattle, where I was adopted. I requested whatis 
known as non-identifying information about my adoption. I learned that 
my birth mother had a brief relationship with my birth father. After 
discovering she was pregnant, my birth mother showed tremendous 
courage, strength, and integrity. It seems to me she had a couple of 
options. She could have hidden the truth by having an abortion, or she 
could marry my father--birth father, that is.
    She chose the latter, which I'm grateful to, and which 
socially was the most difficult. No doubt about it, this 
decision was a tremendous personal sacrifice on both their 
parts, and one that I will always be grateful for. Their 
marriage lasted only a few months, after which my mother 
entered the Lutheran Social Services Home for Unwed Mothers, 
where I was put up for adoption.
    After I received that non-identifying information, I was 
hesitant about moving forward for a couple of reasons. First, I 
did not want my curiosity to hurt my adoptive family, and I was 
worried about how they would react. I did not want to cause 
them any pain or somehow make them feel betrayed. My worries 
were unfounded. I can still remember my mom telling me and I 
quote: ``I always thought you would find your birth parents. 
Maybe you don't remember, but when you were a young boy, we 
used to pray on your birthdays that God would protect your 
birth mother.''
    Second, I heard horror stories about adoptees who had spent 
literally thousands of dollars searching to no avail. This 
concern also fell on the wayside, as I knew it was the only 
right thing to thank my birth parents for their precious gift.
    In the fall of 1995, I began what I call the second phase 
of my search by hiring Michele Heiderer. Michele acted as my 
intermediary, and for those who aren't really familiar with 
that term, an intermediary is a third party who protects one's 
privacy until there is mutual consent for contact. At least 
that's supposed to be the way it works, and, in my case, it 
did.
    Michele quickly found my birth parents and, at last, I was 
able to say thank you. Since then, I have developed a strong 
relationship with both my birth parents. Obviously, not 
everyone is as fortunate as I was. Not everyone can obtain the 
detailed information I did from Lutheran Social Services. Not 
everyone knows where they were born. And not everyone can even 
find their birth parents. For these reasons, I strongly believe 
in S. 1847, the National registry.
    This registry will allow adoptees and their birth parents 
to share information in hopes of being reunited. From my 
personal experience, I can tell you how important reunification 
is for those who seek it. In my case, it allowed me to express 
my gratitude. Equally important, reunification helped wipe away 
the guilt and fears that plagued my birth parents for the last 
30 years. Imagine the amount of pain my birth parents 
accumulated over that time, not knowing if they had made the 
right choice, not knowing if the birth child resents or hates 
them, not knowing if their child they brought into this world 
is alive or dead. My birth parents had made such a tremendous 
sacrifice for me, and they deserved an answer. At least, I felt 
they did.
    I will share one last story to illustrate how important 
reunification is to those who chose it. And I would like to 
emphasize that term ``chose it.'' When I first met my birth 
mother, it seemed to me that she couldn't stop hugging me. I 
remember wondering why. I mean, was she happy to see me? Was 
she sad? Or was she just nervous? I have to tell you her answer 
overwhelmed me; she said and I quote: ``I only held you once 
when you were a baby. I knew if I held you any more than that I 
could never let you go.'' Holding me once answered all of her 
concerns.
    Reunification is not the desire of every adoptee. It's a 
personal choice, and each adoptee's motives are different. A 
voluntary registry--voluntary--will help adoptees and birth 
parents to find each other, but only with their mutual consent. 
That point cannot be stressed enough.
    Mr. Chairman, your committee has the power to wash away 
years of anguish facing tens of thousands of Americans--
adoptees and birth parents. A national registry can hold great 
promise, and I am hopeful that you will support it. I believe 
the Craig-Levin bill will introduce sanity to perhaps a 
confusing and costly process, a process which, in the past, has 
not respected an individual's rights to privacy.
    I strongly support this bill because it is voluntary and 
requires mutual consent. Let me be clear. This registry 
legislation, as I see it, should not be confused with something 
that is known as open records policy. While both are intended 
to bring parties together, their approaches are radically 
different. A registry specifically designed to respect both 
parties' privacy, but open records policy does not. This is an 
important distinction, I believe.
    With that said, I support this legislation, as it allows 
mutually consenting adults to share information in hopes of 
being reunited.
    In closing, I hope my comments prove useful in your 
deliberations, and I remain open to any questions you might 
have.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.061
    
    [GRAPHIC] [TIFF OMITTED]63457A.062
    
    [GRAPHIC] [TIFF OMITTED]63457A.063
    
    [GRAPHIC] [TIFF OMITTED]63457A.064
    
    [GRAPHIC] [TIFF OMITTED]63457A.065
    
    Chairman Shaw. Thank you, Mr. Wilson.
    Mr. Robinson.

STATEMENT OF ROBERT ROBINSON, COMMISSIONER, NATIONAL CONFERENCE 
      OF COMMISSIONERS ON UNIFORM STATE LAWS, PORTLAND, ME

    Mr. Robinson. Mr. Chairman, members of the committee, I'm 
very honored to be asked here today to testify in this matter. 
My name is Robert C. Robinson. I'm an attorney, a member of the 
law firm of Robinson, Kriger, and McCallum, practicing in 
Portland, Maine. I am also a Commissioner on the National 
Conference of Commissioners on Uniform State Laws, which is a 
body of 255 to 300 lawyers, judges and law school professors 
who have as a mission statement the drafting, preparation of 
laws where uniformity is of value to the several States.
    Back in 1976, I was appointed by the Governor of Maine and 
for the past 21 years, have been reappointed by several other 
governors.
    Now, in 1989, the National Conference decided that there 
was a very serious issue confronting the States, and that's the 
level of uniformity with regard to adoption. And so a drafting 
committee was appointed.
    The drafting committee would ordinarily produce a first 
reading at the end of one year, and a second and final reading 
at the end of the second year. The nature of the subject 
matter, however, is so intense and so complicated, and there 
are so many people throughout the country who are so 
impassioned about their views in this matter, that it actually 
took five years in order for the particular adoption act to be 
completed.
    Now, what that means is that the drafting committee would 
present their drafting product to the committee of the Whole on 
the annual meeting of the committee of the whole. And 255 
lawyers and judges and law school professors, each with a 
microphone, would undertake to react to a line by line reading 
in which they would redact, modify, amend, criticize, delete. 
And the transcript of that was then presented to the drafting 
committee, and they would go back to the drawing board for 12 
more months. And this was done for five successive years. 
During that period of time, while the debate was inclusive, and 
the drafting committee invited all of the advisors, all of the 
individuals throughout the country who had any interest 
whatsoever, to the committee meeting. They were given a voice. 
They had no vote, but they were given a voice--whether it be 
for open records, closed records, open adoption, closed 
adoption. There's literally no facet of the adoption process 
that was left undiscussed. It is our feeling, it is the feeling 
of the Conference that the final Uniform Adoption Act, in its 
present form, was a very well designed, well crafted, moderate 
and well balanced Act that was in many instances developed 
through compromise, and, as a result, is now available to be 
enacted in the several States.
    We are, however, very realistic. We recognize that the 
history of Uniform Acts is such that States do not 
automatically come forward and adopt a Uniform Act. But they 
sometimes choose sections that are applicable. More and more 
intelligence is brought to bear. More reality and recognition 
of the value becomes apparent. And ultimately, we have every 
reason to believe that the Uniform Act will be adopted in the 
several States.
    Now, in the meantime, it's important to realize that every 
State in the Union has an adoption act. Every single State in 
the Union has a system whereby identifying information is made 
available. The particular acts in particular States, as a 
result of criticisms and comments that are justifiably made by 
those who are in authority and know, indicate that all systems 
are not perfect. And we do not consider that they are perfect. 
But what we do know and do recognize and accept is that the 
staff that is undertaking to manage and control the mutual 
consent registry and who undertaking to control the fundamental 
substratum upon which adoption is based, which is privacy and 
confidentiality of records, they take great pride in the 
dedication that they have to this particular facet of their 
responsibility. They are dedicated and they comment with anyone 
who wishes to understand that their intention is fully to 
protect and secure the privacy of individuals and the 
confidentiality of records.
    Now, adoption is a matter of State law. There is no Federal 
Adoption Act, and there ought not to be. The fact of the matter 
is that the various States are operating on a very, very 
sensitive, individual, family-type situation, which calls for 
less rather than more. We really and truly do not need the 
Federal Government to come in and duplicate and do what is 
already being done. A Federal act in the nature of S. 1487 will 
cause serious duplication of efforts that are going on 
throughout the entire country. It will undertake to develop a 
bureaucracy, a bureaucracy of untold limits that we cannot 
possibly control. There will be unnecessary effort and expense 
that is yet to be determined, and it will stifle the spirit of 
local self-reliance of individuals and also deprive people of 
the chance to share in the responsibility that they feel so 
strongly about with regard to maintaining the State system of 
adoption and mutual consent registries.
    Now, the particular act, S. 1487, is fraught with land 
mines. It is a veritable disaster in so far as the particular 
language that's contained therein.
    First, I would point to eight items.
    One, the discretion of the Secretary. ``The Secretary in 
the discretion of the Secretary'' shall have the availability 
of the Department of Human Services. That, in itself, 
constitutes a wide open area of intelligence that has 
heretofore been privately maintained with regard to Social 
Security numbers, with regard to Medicaid applicants, with 
regard to welfare applicants. So the discretion of the 
Secretary is a matter of question.
    ``No net cost to the Federal Government.'' No net cost to 
the Federal Government is a statement yet to have a conclusion. 
There is obviously going to be a great cost, and the question 
of where that cost is levied and where it is undertaken and by 
whom is a matter of extreme importance.
    The language of ``any birth parent.'' ``Any birth parent.'' 
Any birth parent has been spoken of here several times today 
with regard to outing a mother. It is not always necessarily 
the intention to out a mother, but there may very well be a 
former putative father who didn't act as a father, who didn't 
conduct himself as a father, whose parental rights have been 
terminated. If this particular individual's parental rights 
have been terminated, he certainly does not, is not, should not 
be entitled to seek identifiable information with regard to a 
birth mother.
    ``Any adult sibling'' follows the same rationale.
    Other data systems that are available--the Social Security, 
the Medicaid, Medicare--all of these factors and all of this 
database intelligence which is available is more likely to be 
available if this is taken into a Federal forum rather than the 
unique qualifying privacy of the State registries.
    Confidentiality ``to the maximum extent feasible.'' That is 
very, very broad language. It is equivocal language that 
requires interpretation. Maximum confidentiality to the maximum 
extent feasible is the language of the Act. It is equivocal 
language. It needs and must be repaired and amended in order to 
be effective.
    ``Reasonable fees'' constitute a chilling effect on 
adopting parents.
    ``No preemption.'' The suggestion that there is no 
preemption of the State in order to undertake to raise and 
articulate the best interests of the Federal system is somewhat 
of a SOP, it seems to me. Because it is unusual and very, very 
strange to find the Federal Government granting ``no 
preemption.'' And it would appear that if that ever came to 
pass, that judicial review would be required in order to 
ascertain precisely why the ``no preemption'' was given as it 
was, and what was the reason, and whether or not the States 
should or should not be granted that consideration.
    Now, I think it is very critical and very important for us 
to take great care to avoid casual attitudes about this 
process, which gives hope to children and biological mothers. 
And we must use our best efforts to do no harm, but to bring 
together those who, in the spirit of good will, can resolve our 
differences and guarantee to the several States a renewed 
commitment to continue to improve the adoption process.
    Thank you very much, Mr. Chairman, and gentleman. I 
respectfully request and suggest that the Federal Government, 
if it undertakes to do the things that are being suggested with 
regard to bringing consenting adults together, it probably can 
do it. But it cannot do it as well as is being done by the 
States, and the various burdens that I have delineated which 
will be concomitant with this Act would justify, in my opinion, 
that this Act ought not to pass.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.066
    
    [GRAPHIC] [TIFF OMITTED]63457A.067
    
    [GRAPHIC] [TIFF OMITTED]63457A.068
    
    [GRAPHIC] [TIFF OMITTED]63457A.069
    
    [GRAPHIC] [TIFF OMITTED]63457A.070
    
    [GRAPHIC] [TIFF OMITTED]63457A.071
    
    [GRAPHIC] [TIFF OMITTED]63457A.072
    
    [GRAPHIC] [TIFF OMITTED]63457A.073
    
    [GRAPHIC] [TIFF OMITTED]63457A.074
    
    Chairman Shaw. Thank you.
    Mr. Levin, you may inquire.
    Mr. Sander Levin. Thank you, Mr. Chairman.
    First, let me give some reassurances to you, Ms. Sandusky. 
I don't know if the social worker there violated State law.
    Ms. Sandusky. She did. It was considered a third degree 
misdemeanor and they let her off.
    Mr. Sander Levin. This legislation won't affect that one 
way or the other. We cannot make up for defaults in the part of 
State authorities. This proposal says that there has to be 
mutual consent by a signed, notarized statement. So I just want 
you to be reassured on that point.
    Mr. Robinson,
    Ms. Sandusky. Can I just say, in the response to that. Even 
at the Federal level, if you say that all parties must be in 
agreement to have this happen, if it can happen at a State 
level, it can certainly happen at a Federal level.
    Mr. Sander Levin. Well, but if we go by that rule, though, 
there would be no laws of any kind. I mean, I have more faith 
in most prosecutors, State and Federal, and in most committees, 
State and Federal. The notion that we would pass something, and 
there would be abuse, and we would let things get totally out 
of hand, I think, fails to take into account the responsibility 
of this subcommittee and of this Congress. You know, you can 
say about anything that there'sa foot in the door or nose under 
the tent. I have a little more faith that this is not, in any way, a 
step towards open records. In fact, I think it would perhaps discourage 
such efforts.
    Mr. Robinson, the attitude--you know, you talked about the 
uniform law that you, I guess, helped to draft. It has a 
provision, does it not, for communication if there's mutual 
desire between an adoptee and one birth parent, right?
    Mr. Robinson. Yes, you're absolutely right, Congressman? 
That is correct. However, you will probably note in my written 
statement that I have some reservations with regard to that, 
which I'm not totally sure the National Conference of 
Commissioners agrees with. I feel----
    Mr. Sander Levin. I think they disagree with it.
    Mr. Robinson. Well, I would say in the incipient stage of 
development that's true. But that doesn't mean that it's etched 
in stone; that it's forever. I may be successful in convincing 
there should be a modification of that. The fact of the matter 
is----
    Mr. Sander Levin. Let me just ask you about your own State, 
if I might. I think your own State has indicated there's been 
no problems with this, right? Let me just read to you what is--
the letter from the Department of Human Services--you're from 
Maine?
    Mr. Robinson. Yes, I am.
    Mr. Sander Levin. ``I'm sending this letter in response to 
your inquiry''--this was June 4, 1998--``regarding the Maine 
State Adoption Reunion Registry. At this time, Maine has not 
come across any problems regarding the reunion between an adult 
adoptee and a reunion with one birth parent.''
    Mr. Robinson. Well, Congressman Levin, your brother, the 
Senator, has made that answer to several of the inquiries that 
were made to him--that there's never been a problem.
    Mr. Sander Levin. No, no, no. He said--look, no one is 
saying that there will never be a problem when one child--when 
a child and one parent by mutual consent find each other. No 
one has ever said that. It's the process of weighing the 
experiences given to you here today, of Mr. Wilson and Ms. 
Swanson, and the research on that of balancing the desire, the 
voluntary mutual desire of two people to find each other who 
may live in very different places in the country with possible 
negative consequences, not those mentioned by Ms. Sandusky, 
where there was a clear violation of State law. There wasn't a 
case of mutual consent. She objected, and it was reprehensible 
the way that was handled.
    Let me just ask you, if I might. There's this letter----
    Mr. Robinson. Congressman, may I respond?
    Mr. Sander Levin. Is it Ms. Marquess? Let me just----
    Mr. Robinson. May I respond to that? The points you're 
making are valid and meritorious, but they don't say it all, 
Congressman. There is not the slightest question that there are 
fathers, putative fathers, who don't act like fathers who are 
ultimately denied their parental rights. And yet, the language 
that you speak of in the Act suggests that they would have the 
right to avail themselves of identifying information. I think 
that's absolutely and totally out of order. It is not----
    Mr. Sander Levin. Okay, let me just say----
    Mr. Robinson. It is not in the spirit of the Act or what is 
intended.
    Mr. Sander Levin. But the Uniform Law is reflected in the 
legislation that was passed unanimously by the Senate; the 
Uniform Code proposed by a committee on which you serve. Now, 
you may disagree with it, but that's been the proposal.
    Let me just ask, is it Marquess?
    Ms. Marquess. Marquess.
    Mr. Sander Levin. Marquess. Okay. I wasn't sure. Do you 
know the Children's Home Society in Florida? Let me just, if I 
might--and I'll finish up, Mr. Chairman--read this letter from 
them. They're a reputable organization? And they're very active 
in this area?
    Ms. Marquess. In adoption reunion?
    Mr. Sander Levin. No, in adoption issues.
    Ms. Marquess. Yes, the Children's Home Society in Florida 
is active in adoption.
    Mr. Sander Levin. Okay, here's a letter from the senior 
social worker for adoptions, North Central Division. ``I feel 
even more strongly now that such a registry is needed on a 
national basis. We in Florida have a statewide registry 
available to adoptees and biological families, but as in other 
States, many of those persons needing information or seeking to 
contact biological family do not know of its existence. Because 
of the mobility of our society, often persons who were adopted 
in Florida and who placed a child while living in Florida are 
no longer residents and do not know that such a registry 
exists. We attempt to assist these people, but often there is 
little we can do because we do not have their original records. 
It would be helpful to be able to refer these individuals to a 
national registry, where there would be a greater chance that 
they may be able to be reunited with the biological family.''
    Do you think this expression is not one worthy of 
attention?
    Ms. Marquess. Oh, yes, sir. I think it's worthy of 
attention. If I recall correctly, there are nine local units of 
the Children's Home Society around the State of Florida, with a 
State headquarters in Jacksonville. Their State headquarters 
contains all of the records of all adoptions that they have 
handled; that the organization has been responsible for in the 
State of Florida. It may take an individual worker some time, 
to get access to those records but their organization is 
responsible for maintaining their records. And, as I understand 
it, those records are kept at State headquarters.
    Mr. Sander Levin. What if the records are in Nebraska? I 
mean, how--someone comes in to Florida, tries to access the 
registry, a child. And the mother has registered in Nebraska. I 
understand the depth of emotions here, and there is no 100 
percent guarantee of any system, but the Chairman and I, I 
think, are trying to get at the bottom of this. And I think 
other members are too. There's no partisanship involved here. I 
mean, all that's irrelevant. We're talking about individual 
human beings here. And there will be pluses and minuses to any 
proposal, by definition, because we're dealing with a myriad of 
circumstances. But tell me, if the person, the mother is in 
Nebraska, where does the person in Florida turn?
    Ms. Marquess. If the birth mother is in Nebraska?
    Mr. Sander Levin. Yes. And she filed in Nebraska, and the 
child, I don't know--let's assume they have the same law as 
Florida. And the person in Florida signed up in Florida. What 
is Helen Irvin, who signed this letter, what does she do? More 
importantly, what do the two people do?
    Ms. Marquess. I don't know. In Florida, if we canverify 
that the person was adopted in Florida or, in some instances, adopted 
in another State but born in Florida, they are still able to register 
in the Florida registry.
    Mr. Sander Levin. But, but you may not know where the other 
person is. What does that person in Florida do?
    Ms. Marquess. I don't know.
    Mr. Sander Levin. Thank you.
    Chairman Shaw. This subject is much more complicated than I 
think any of us had really realized. And I think that's what 
hearing are for--instead of passing things by unanimous consent 
on the Senate floor. [Laughter.]
    I think that's very dangerous. We heard from Senator 
Bennett, who obviously if it's unanimous, he was somewhere 
around. He's got concerns about it now. And I have concerns 
about it. I remember when this came through originally attached 
to a bill, Senator Levin and I had some discussions as to 
pulling it off, because I was concerned about doing this 
without any hearings. And now we've had one, and I'm really 
confused.
    But I'd like to, Ms. Marquess, follow up with what you were 
talking about. The bill itself, if we were to pass something 
like this, or put something like this out there, the question 
is how much background can the Federal Government get involved 
in delving into State records and what not in order to see if 
someone should properly be put on the registry. Obviously, you 
don't want a registry where everybody just dropped by on their 
lunch hour and get their name put on the list. That's not what 
we're all about, and that's not what we're going to do. And 
that would make the list absolutely meaningless, really.
    Maybe we ought to talk about a network of States 
communicating with each other rather than a national registry, 
some way to exchange information between States so that that 
what Mr. Levin is talking about--somebody is looking for 
somebody in Nebraska--if Nebraska's got a credible system, 
perhaps there'd be some way to work together to compare these 
records to see if there might be a match in another State.
    What exactly is involved in the background that Florida 
does before they put somebody on that list? Somebody comes in 
the door, they want to be on the list, what do you do?
    Ms. Marquess. First of all, they have to prove who they 
are. We want to be sure that, to start out, that we're dealing 
with the right person. And for birth mothers that means a copy 
of their driver's license, and sometimes, even for them, a copy 
of their birth certificate. The driver's license that they 
carry today does not necessarily prove that's who they were 35 
years ago, when they gave birth to the child that they placed 
for adoption.
    Chairman Shaw. Does the biological parent have any proof 
that they gave birth to a child on X date?
    Ms. Marquess. The only way that we verify that she is the 
birth mother is by the original birth certificate that's held 
by the Florida Bureau of Vital Statistics.
    Chairman Shaw. And the parent, the biological parent, would 
have that original birth certificate?
    Ms. Marquess. No, they do not have that original birth 
certificate.
    Chairman Shaw. They don't have that?
    Ms. Marquess. I can access that original birth certificate 
through the Office of Vital Statistics.
    Chairman Shaw. I know in Florida, when you adopt a child, 
you get a birth certificate showing the child was born to you, 
the adopting parent.
    Ms. Marquess. That's right.
    Chairman Shaw. And if you show it to a school or whatever--
but that original birth certificate showing the child----
    Ms. Marquess. That's sealed by State law at the time the 
adoption is finalized. And the birth parent does not have 
access to that if they did not get a copy of that prior to the 
finalization of adoption. Once the adoption has been finalized, 
that original birth certificate is sealed. But we do have--our 
statute created a cooperative agreement between registry and 
the Office of Vital Statistics so that we can determine that a 
birth mother applying is, in fact, the birth mother that's 
shown on the original birth certificate.
    Chairman Shaw. Now, can an out of state resident, who gave 
birth in Georgia, to a child, who has reason to believe that 
the child might have been adopted in Florida, can they come in 
and get on that registry?
    Ms. Marquess. Yes.
    Chairman Shaw. And they don't have to show any proof except 
just what they think.
    Ms. Marquess. Well, if the child was born in Georgia and 
adopted in the State of Florida? Okay. That adoption record is 
going to show where that child was born.
    Chairman Shaw. Will the biological parent have that 
adoption record?
    Ms. Marquess. No, the biological parent will not have the 
adoption record.
    Chairman Shaw. Will the biological parent have any idea 
where the child is?
    Ms. Marquess. No.
    Chairman Shaw. So.
    Ms. Marquess. Well, I will tell you what we do for birth 
parents in Florida. It was not unusual for birth parents to 
come to Florida in the 1950's, 1960's, early 1970's, have their 
baby, and then return home. And we hear quite often from those 
birth mothers who want to enter our registry. And one of the 
things that they ask us is wherewas my baby adopted? If that 
baby was born in Florida and was adopted, we can determine the State of 
finalization. Because that information comes from the Courts to vital 
statistics when they issue the amended birth certificate.
    Chairman Shaw. Would you tell the biological parent that?
    Ms. Marquess. Yes.
    Chairman Shaw. Even without a match, you could say your 
child was adopted in Florida.
    Ms. Marquess. Even without a match, the child that you 
placed for adoption was adopted in Florida or New York State in 
the spring of 1960.
    Chairman Shaw. Is that information generally available?
    Ms. Marquess. No, I have to get that from Vital Statistics.
    Chairman Shaw. No, no, no. I'm sorry. In other States is 
there a similar situation where the parent, the biological 
parent can find out where the child went.
    Ms. Marquess. Georgia, it is; and I believe also in 
Alabama--the States surrounding us.
    Mr. Robinson. You can by order of court.
    Chairman Shaw. They don't have to go to court to get that 
information?
    Ms. Marquess. No, sir, not in Florida. They do not have to 
go to court.
    Ms. Swanson. Can I speak?
    Chairman Shaw. Certainly.
    Ms. Swanson. I have a situation in Michigan right now where 
a birth mother has given her consent. It has been on file for a 
very long time. And she was going to take the next step to do a 
confidential intermediary search. And we have learned that 
because of the gray market that existed at the time, her 
doctors slipped that baby out of State, and he won't tell. And 
there's nothing--this birth mother's rights to the law in 
Michigan have been foregone because although our law permits 
her to be given the county of placement, county of finalization 
so that she can complete the process in Michigan, there is no 
recourse for her. If her doctor won't tell where that baby 
went, and it was done illegally, she has nothing.
    Ms. Sandusky. In most cases, when children were thankfully 
placed for adoption--you know, adoption is a wonderful option. 
But in most cases, they were told, these women were told, you 
would have confidentiality. And then now we have 30 years 
later, women that weren't validated, women that weren't thanked 
and appreciated for the gift they've given coming back and 
searching. And you never really hear from the adoptees that 
want their privacy because it's a Catch 22. You have to come 
forward and say, hey, I'm Carol Sandusky, and I want my 
privacy. And this is inappropriate also. We need to find a way 
to work this.
    Chairman Shaw. Well, if we're going to pass such a law, we 
certainly have a lot of work to do.
    I want to thank this panel for your good testimony and for 
being with us, and I apologize for the length of time this has 
taken. But I think this is about the most balanced hearing I've 
ever seen. I feel like a ping pong ball. I'm not coming out of 
here with any clear picture. But I'm going out of here really 
knowing a lot of the problems and a lot of the good parts, so 
it's going to be for us to think about. Thank you all very, 
very much.
    Our final panel--Kent Markus, who is the Deputy Chief of 
Staff, U.S. Department of Justice; and Ann Sullivan, who is the 
Director of Adoption Services, Child Welfare League of America 
in Washington, D.C. As the other witnesses today, we have your 
full statement, which will be made a part of the record, and we 
would invite you to summarize.
    Ms. Sullivan, why don't you start? I think Mr. Markus 
stepped out.

STATEMENT OF ANN SULLIVAN, DIRECTOR OF ADOPTION SERVICES, CHILD 
                   WELFARE LEAGUE OF AMERICA

    Ms. Sullivan. Mr. Chairman, Mr. Levin, as you mentioned my 
name is Ann Sullivan. I am the Director of Adoption Services 
for the Child Welfare League. In the interest of time, I will 
not be reading my entire statement.
    CWLA is a 78-year-old association made up of over 900 
public and private agencies that serve over more than 2,000,000 
abused and neglected children and their families each year. 
CWLA member agencies provide the wide array of services that 
are really needed to work with abused and neglected children as 
listed in my testimony. Nearly 450 of our member agencies offer 
adoption services. Over 650 of our agencies offer foster care 
placement and kinship placements.
    My testimony today addresses the existing State practices 
for the screening of prospective foster and adoptive parents 
for criminal backgrounds. CWLA has long been an advocate for 
ensuring the safety of abused and neglected children. Our 
standards recommend a thorough review of any prospective foster 
and adoptive parents to determine that person's fitness to 
undertake the responsibility for the safety and well being of a 
child.
    Conducting such background checks, however, is only one 
component of assessing an applicant's suitability to adopt or 
to become a foster parent. Many other factors are also taken 
into account, such as the individual's emotional stability, 
flexibility, ability to identify and meet the needs of a child, 
experience with children, willingness to seek help when 
problems arise, and type of child desired. These factors are 
considered in a process of mutual assessment through a series 
of interviews and training for prospective foster and adoptive 
parents. Our CWLA standards on the background checks for both 
foster care and adoption are listed in this testimony; I'm not 
going to read them in their entirety.
    As has been indicated earlier, this subcommittee put 
together a bill that was passed, the Adoption and Safe Families 
Act, that now requires States to provide procedures for 
criminal records checks for any prospective adoptive and foster 
parent before that parent can be approved to receive a child 
receiving Title IV-E, Federal Adoption Assistance, or 
Fostercare Assistance.
    The new law stipulates that the States have in place 
procedures for criminal background checks, unless the State 
elects otherwise. AFSA allows States to opt out of these new 
requirements either by passing a State law that exempts themor 
by having the Governor contact HHS in writing, saying that they have 
elected to be exempt from these requirements.
    CWLA is currently in the process of tracking State's 
progress in implementing AFSA. As part of that effort, we have 
just completed a survey of the States to determine their 
practices regarding criminal background checks.
    We found that States are currently in the process of 
reviewing their own policies and statutes to ensure full 
compliance with AFSA. Key findings include: only two States, 
New York and North Dakota, do not require criminal background 
checks for prospective foster and adoptive parents. Both of 
these States will need to pass legislation to come into 
compliance with AFSA. All other States reported that they 
conduct background checks utilizing at least State data. Twenty 
States routinely access national data as well as state data in 
checking the backgrounds of potential adoptive and foster 
parents.
    Of the States that utilize only statewide data, the 
majority indicated that if a family has moved from another 
State in recent years, they will also utilize the national 
databases.
    Just a handful of States indicated they will have to make 
changes in their laws to comply with the AFSA requirements that 
prospective parents may not be approved if a criminal record 
check reveals a felony conviction for child abuse or neglect, 
spousal abuse, a crime against children, including child 
pornography, or a crime involving violence, including rape, 
sexual assault, or battery. However, 16 States indicated they 
will have to make changes in their State laws to comply with 
the AFSA stipulation that approval must be denied if a criminal 
record check reveals a felony conviction for physical assault, 
battery, or a drug-related offense if the felony was committed 
within the past five years.
    Finally, no State reported the intention to opt of the AFSA 
requirement. I would be remiss, however, if I didn't take 30-
seconds to make a comment about the mutual consent registry 
issue that was just being discussed. I would urge the 
Congressional representatives to look at the research that has 
been summarized by Madelyn Freundlich of the Evan B. Donaldson 
Institute. It shows overwhelmingly that large numbers of adult 
adoptees, birth parents, and increasing number of adoptive 
parents really do want and need to find each other. I get calls 
literally every week in my office from people who have been 
emotionally tortured, it seems, throughout their whole lives. 
They have struggled for years with this lack of information 
about their backgrounds. I would hope that the committee would 
be guided by the research that's available for the record on 
this issue.
    At the risk of being even more controversial, I should 
mention that the Uniform Adoption Act that was so eloquently 
promoted by Mr. Robinson has been actively opposed by the Child 
Welfare League of America; by the North American Council on 
Adoptable Children, which is the major national adoptive parent 
organization in this country; and, most importantly perhaps, 
was unanimously rejected by the National Council of Juvenile 
and Family Court Judges, the judges that hear the adoption 
cases.
    I hope this information I've provided on criminal 
background checks will be useful.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.075
    
    [GRAPHIC] [TIFF OMITTED]63457A.076
    
    [GRAPHIC] [TIFF OMITTED]63457A.077
    
    [GRAPHIC] [TIFF OMITTED]63457A.078
    
    Chairman Shaw. Thank you.
    Mr. Markus.

     STATEMENT OF KENT MARKUS, DEPUTY CHIEF OF STAFF, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Markus. Mr. Chairman, Mr. Levin. It's a pleasure to be 
here today to discuss our shared interest in protecting the 
most vulnerable members of our society, our children.
    The Ways and Means Committee is to be commended, and the 
subcommittee also, for its leadership on the issue of adoption 
and foster care and the passage last year of the Adoption and 
Safe Families Act to increase the adoption rate in the United 
States. Certainly, providing stable and caring homes for our 
nation's children is a priority that is of great interest, 
particularly to those at the Justice Department, and I might 
say particularly to our Attorney General, who are concerned 
with reducing incidences of youth violence.
    In a related effort, the Justice Department has been 
involved with developing screening guidelines for care givers 
across the spectrum--whether they are prospective adoptive 
parents, foster parents, day care providers, leaders of youth 
organizations, or care givers for elderly or disabled adults.
    While these guidelines do not specifically address the 
issue of adoption or foster care, the decision model they 
present can also be applied when determining screening 
practices for prospective adoptive or foster parents. And, 
indeed, that was the objective of this exercise: Is to have a 
model that could be applied in a wide range of different 
circumstances to determine what type of screening might be 
appropriate.
    As you know, the 1994 crime law amended the 1993 National 
Child Protection Act, and directed the Attorney General to 
develop guidelines for the adoption of appropriate safeguards 
by care providers and by States for protecting children, the 
elderly, or individuals with disabilities from abuse.
    In response, the Department of Justice developed the 
document recently released by President Clinton during his 
weekly radio address on May 9: the guidelines for screening of 
persons working with children, the elderly and individuals with 
disabilities in need of support. That's this document, and I 
believe all the members of the subcommittee were provided a 
copy of this document that contains the guidelines.
    You will note that the guidelines issued by the Department 
do not recommend that criminal record checks be required in all 
circumstances. Instead, they present advice for States and 
organizations in establishing comprehensive screening 
practices. The guidelines lead States, local communities or 
service organizations through a multi-step approach for 
assessing their screening needs in establishing a policy that 
provides an appropriate level of screening based upon the 
specific situation at hand. The suggested screening mechanisms 
may include the Federal Bureau of Investigation's finger-print 
based criminal records check where warranted.
    However, this is not suggested for every scenario. What we 
have tried to do in the guidelines is to simply provide the 
design of a spectrum that helps States and organizations 
determine what level of screening might be necessary in a 
variety of circumstances. This spectrum ranges from situations 
where there is little threat, to situations where a child or 
vulnerable adult could be at real risk. For example, a parent 
volunteer, chaperoning a half-day field trip, probably requires 
no screening at all.
    However the same person, as a prospective adoptive parent, 
should be subject to the most thorough levels of screening 
before we would allow that kind of activity to take place.
    The decision model presented in the guidelines is a three 
step process.
    The first step assesses triggers that pertain to the 
setting in which the care is provided, the care giver's level 
of contact with the person receiving care, and the 
vulnerability of the person receiving the care. It is a common 
sense approach that says, in essence, that the greater the 
period of unsupervised contact, the greater degree of screening 
is necessary.
    The second step is evaluating the impact of what we call 
``intervenors,'' or factors that might limit or affect the 
choice and level of screening. This means asking what things 
might interfere with an agency's or organization's ability to 
do a particular screening. For example, do State laws allow an 
organization to have access to criminal history background 
information? Do you have the financial or human resources 
available to do the screening that might be called for?
    The third step is the selection of the screening to be 
used. At a minimum, this decision model assumes that every 
employer and volunteer should use some basic screening. Basic 
screening includes a formal written application, a signed 
statement, personal reference checks with telephone contact, 
and a comprehensive personal interview. If the assessment and 
evaluation steps indicate that more than basic screening is 
necessary, a number of other screening measures can be used. 
These measures range from checks of central child abuse 
registries to home visits, to FBI fingerprint checks. Many of 
these screening mechanisms are already in use by States and 
adoption organizations in screening prospective adoptive and 
foster parents, as the last witness indicated.
    In determining the level and type of screening appropriate 
for the setting, it should be pointed out thatall screening 
practices, including FBI fingerprint checks, have limitations. 
Screening cannot guarantee that all individuals who pass through the 
screening will not abuse those in their care, nor is screening a 
guarantee of competency. Screening must be seen in the context as one 
tool that can prevent harm. In order to establish our goal of 
protecting the vulnerable in our nation, we must incorporate screening 
as part of the broader abuse prevention practices we develop.
    The Department of Justice is pleased to have provided a 
framework for States and organizations to use in determining 
appropriate screening. While we have focused our discussion on 
screening procedures applicable to all vulnerable--
politicians--populations--and vulnerable politicians, I would 
also be happy to answer questions specific to their application 
to adoptive and foster families.
    [The prepared statement follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.079
    
    [GRAPHIC] [TIFF OMITTED]63457A.080
    
    [GRAPHIC] [TIFF OMITTED]63457A.081
    
    [GRAPHIC] [TIFF OMITTED]63457A.082
    
    [GRAPHIC] [TIFF OMITTED]63457A.083
    
    [GRAPHIC] [TIFF OMITTED]63457A.084
    
    [GRAPHIC] [TIFF OMITTED]63457A.085
    
    [GRAPHIC] [TIFF OMITTED]63457A.086
    
    [GRAPHIC] [TIFF OMITTED]63457A.087
    
    [GRAPHIC] [TIFF OMITTED]63457A.088
    
    [GRAPHIC] [TIFF OMITTED]63457A.089
    
    [GRAPHIC] [TIFF OMITTED]63457A.090
    
    Chairman Shaw. You're not going to----
    Mr. Markus. It may be subject to abuse if we're not 
careful.
    Chairman Shaw. Does that conclude your remarks?
    Mr. Markus. Yes, sir, it does.
    Chairman Shaw. Mr. Levin?
    Mr. Sander Levin. Oh, I don't have any questions. We 
appreciate the testimony from both of you. It's an important 
subject. And Ms. Sullivan, thank you very much for taking 30-
seconds of your testimony to refer to the earlier subject, and 
you did refer to work of Madeleine Freundlich?
    Ms. Sullivan. Freundlich--the Evan B. Donaldson.
    Mr. Sander Levin. And she did submit some testimony that 
will be in the record, and I hope that everybody reads it 
showing I think perhaps a somewhat surprising, clearly large 
percentage of people who want to find each other.
    Thank you, Mr. Chairman. Thank you for the hearing.
    Chairman Shaw. Thank you, and, Sandy, I appreciate your 
comments and all the witnesses comments. This is a tough 
subject. It's one that we want to accommodate, but we don't 
want to open up some other problems, and it's a tough, tough 
issue for us. And we'll be thinking about it and talking about 
this over the rest of the year, for sure. I appreciate your 
time to come and testify as well as, of course, all of the 
other witnesses.
    Congressman Oberstar, who was supposed to be part of our 
first panel, he was tied up in another hearing. As you know, he 
is the ranking Democratic member on the Public Works and 
Transportation Committee. His statement will be made a part of 
the record without objection.
    [The prepared statement of Mr. Oberstar follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.091
    
    [GRAPHIC] [TIFF OMITTED]63457A.092
    
    Chairman Shaw. And with that, Congressman Souder, who I 
understand cannot come, has a statement to also go on the 
record. So both those statements will go on the record.
    [The prepared statement of Mr. Souder follows:]
    [GRAPHIC] [TIFF OMITTED]63457A.093
    
    [GRAPHIC] [TIFF OMITTED]63457A.094
    
    [GRAPHIC] [TIFF OMITTED]63457A.095
    
    Chairman Shaw. The hearing is concluded. Thank you.
    [Whereupon, at 1:20 p.m., the hearing adjourned subject to 
the call of the Chair.]
    [Submissions for the record follow:]
    [GRAPHIC] [TIFF OMITTED]63457A.096
    
    [GRAPHIC] [TIFF OMITTED]63457A.097
    
    [GRAPHIC] [TIFF OMITTED]63457A.098
    
    [GRAPHIC] [TIFF OMITTED]63457A.099
    
    [GRAPHIC] [TIFF OMITTED]63457A.101
    
    [GRAPHIC] [TIFF OMITTED]63457A.102
    
    [GRAPHIC] [TIFF OMITTED]63457A.103
    
    [GRAPHIC] [TIFF OMITTED]63457A.104
    
    [GRAPHIC] [TIFF OMITTED]63457A.105
    
    [GRAPHIC] [TIFF OMITTED]63457A.106
    
    [GRAPHIC] [TIFF OMITTED]63457A.107
    
    [GRAPHIC] [TIFF OMITTED]63457A.108
    
    [GRAPHIC] [TIFF OMITTED]63457A.109
    
    [GRAPHIC] [TIFF OMITTED]63457A.110
    
    [GRAPHIC] [TIFF OMITTED]63457A.111
    
    [GRAPHIC] [TIFF OMITTED]63457A.112
    
    [GRAPHIC] [TIFF OMITTED]63457A.113
    
    [GRAPHIC] [TIFF OMITTED]63457A.114
    
    [GRAPHIC] [TIFF OMITTED]63457A.115
    
    [GRAPHIC] [TIFF OMITTED]63457A.116
    
    [GRAPHIC] [TIFF OMITTED]63457A.117
    
    [GRAPHIC] [TIFF OMITTED]63457A.118
    
    [GRAPHIC] [TIFF OMITTED]63457A.119
    
    [GRAPHIC] [TIFF OMITTED]63457A.120
    
    [GRAPHIC] [TIFF OMITTED]63457A.121
    
    [GRAPHIC] [TIFF OMITTED]63457A.122
    
    [GRAPHIC] [TIFF OMITTED]63457A.123
    
    [GRAPHIC] [TIFF OMITTED]63457A.124
    
    [GRAPHIC] [TIFF OMITTED]63457A.125
    
    [GRAPHIC] [TIFF OMITTED]63457A.126
    
    [GRAPHIC] [TIFF OMITTED]63457A.127
    
    [GRAPHIC] [TIFF OMITTED]63457A.128
    
    [GRAPHIC] [TIFF OMITTED]63457A.129
    
    [GRAPHIC] [TIFF OMITTED]63457A.130
    
    [GRAPHIC] [TIFF OMITTED]63457A.131
    
    [GRAPHIC] [TIFF OMITTED]63457A.132
    
    [GRAPHIC] [TIFF OMITTED]63457A.133
    
    [GRAPHIC] [TIFF OMITTED]63457A.134
    
    [GRAPHIC] [TIFF OMITTED]63457A.135
    
    [GRAPHIC] [TIFF OMITTED]63457A.136
    
    [GRAPHIC] [TIFF OMITTED]63457A.137
    
    [GRAPHIC] [TIFF OMITTED]63457A.138
    
    [GRAPHIC] [TIFF OMITTED]63457A.139
    
    [GRAPHIC] [TIFF OMITTED]63457A.140
    
    [GRAPHIC] [TIFF OMITTED]63457A.141
    
    [GRAPHIC] [TIFF OMITTED]63457A.142
    
    [GRAPHIC] [TIFF OMITTED]63457A.143
    
    [GRAPHIC] [TIFF OMITTED]63457A.144
    
    [GRAPHIC] [TIFF OMITTED]63457A.145
    
    [GRAPHIC] [TIFF OMITTED]63457A.146
    
    [GRAPHIC] [TIFF OMITTED]63457A.147
    
    [GRAPHIC] [TIFF OMITTED]63457A.148
    
    [GRAPHIC] [TIFF OMITTED]63457A.149
    
    [GRAPHIC] [TIFF OMITTED]63457A.150
    
    [GRAPHIC] [TIFF OMITTED]63457A.151
    
    [GRAPHIC] [TIFF OMITTED]63457A.152
    
    [GRAPHIC] [TIFF OMITTED]63457A.153
    
    [GRAPHIC] [TIFF OMITTED]63457A.154
    
    [GRAPHIC] [TIFF OMITTED]63457A.155
    
    [GRAPHIC] [TIFF OMITTED]63457A.156
    
    [GRAPHIC] [TIFF OMITTED]63457A.157
    
    [GRAPHIC] [TIFF OMITTED]63457A.158
    
    [GRAPHIC] [TIFF OMITTED]63457A.159
    
    [GRAPHIC] [TIFF OMITTED]63457A.160
    
    [GRAPHIC] [TIFF OMITTED]63457A.161
    
    [GRAPHIC] [TIFF OMITTED]63457A.162
    
    [GRAPHIC] [TIFF OMITTED]63457A.163
    
    [GRAPHIC] [TIFF OMITTED]63457A.164
    
    [GRAPHIC] [TIFF OMITTED]63457A.165
    
    [GRAPHIC] [TIFF OMITTED]63457A.166
    
    [GRAPHIC] [TIFF OMITTED]63457A.167
    
    [GRAPHIC] [TIFF OMITTED]63457A.168
    
    [GRAPHIC] [TIFF OMITTED]63457A.169
    
    [GRAPHIC] [TIFF OMITTED]63457A.170
    
    [GRAPHIC] [TIFF OMITTED]63457A.171
    
    [GRAPHIC] [TIFF OMITTED]63457A.172
    
    [GRAPHIC] [TIFF OMITTED]63457A.173
    
    [GRAPHIC] [TIFF OMITTED]63457A.174
    
    [GRAPHIC] [TIFF OMITTED]63457A.175
    
    [GRAPHIC] [TIFF OMITTED]63457A.176
    
    [GRAPHIC] [TIFF OMITTED]63457A.177
    
    [GRAPHIC] [TIFF OMITTED]63457A.178
    
    [GRAPHIC] [TIFF OMITTED]63457A.179
    
    [GRAPHIC] [TIFF OMITTED]63457A.180
    
    [GRAPHIC] [TIFF OMITTED]63457A.181
    
    [GRAPHIC] [TIFF OMITTED]63457A.182
    
    [GRAPHIC] [TIFF OMITTED]63457A.183
    

</pre></body></html>
